<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION, THE SURFACE TRANSPORTATION BOARD, THE NATIONAL TRANSPORTATION SAFETY BOARD, AND THE CORPORATION FOR PUBLIC BROADCASTING</title>
<body><pre>[Senate Hearing 111-487]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-487
 
                     NOMINATIONS TO THE DEPARTMENT
                     OF TRANSPORTATION, THE SURFACE
                   TRANSPORTATION BOARD, THE NATIONAL
                  TRANSPORTATION SAFETY BOARD, AND THE
                  CORPORATION FOR PUBLIC BROADCASTING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
53-263                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2009....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     4
Statement of Senator McCaskill...................................     6
Statement of Senator Thune.......................................     7

                               Witnesses

Hon. Richard Durbin, U.S. Senator from Illinois..................     5
Hon. Sherrod Brown, U.S. Senator from Ohio.......................     7
Hon. Mark Udall, U.S. Senator from Colorado......................     8
Christopher P. Bertram, Assistant Secretary-Designate for Budget 
  and Programs and Chief Financial Officer, Department of 
  Transportation.................................................     9
    Prepared statement...........................................    10
    Biographical information.....................................    10
Susan L. Kurland, Assistant Secretary-Designate, Aviation and 
  International Affairs, Department of Transportation............    15
    Prepared statement...........................................    17
    Biographical information.....................................    17
Daniel R. Elliott, III, Member-Designate, Surface Transportation 
  Board..........................................................    25
    Prepared statement...........................................    25
    Biographical information.....................................    26
Hon. Christopher A. Hart, Member-Designate, National 
  Transportation Safety Board....................................    31
    Prepared statement...........................................    32
    Biographical information.....................................    33
Patricia D. Cahill, Member-Designate, Board of Directors, 
  Corporation for Public Broadcasting............................    40
    Prepared statement...........................................    41
    Biographical information.....................................    42

                                Appendix

Response to written questions submitted by Hon. Frank R. 
  Lautenberg to Christopher Bertram..............................    57
Response to written questions submitted to Susan Kurland by:
    Hon. Tom Udall...............................................    57
    Hon. Johnny Isakson..........................................    58
Response to written questions submitted to Daniel Elliott by:
    Hon. Maria Cantwell..........................................    59
    Hon. Frank R. Lautenberg.....................................    60
    Hon. Tom Udall...............................................    61
    Hon. Kay Bailey Hutchison....................................    61
    Hon. John Thune..............................................    62
    Hon. Johnny Isakson..........................................    64
    Hon. Sam Brownback...........................................    64
Response to written questions submitted by Hon. Tom Udall to Hon. 
  Christopher Hart...............................................    64
Response to written questions submitted to Patricia Cahill by:...
    Hon. Frank R. Lautenberg.....................................    65
    Hon. Tom Udall...............................................    66


                     NOMINATIONS TO THE DEPARTMENT
                     OF TRANSPORTATION, THE SURFACE
                   TRANSPORTATION BOARD, THE NATIONAL
                  TRANSPORTATION SAFETY BOARD AND THE
                  CORPORATION FOR PUBLIC BROADCASTING

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The hearing will come to order. Good 
afternoon, everyone. I welcome you.
    Are those who are going to introduce our nominees here? No? 
Well, there's nothing like loyalty.
    [Laughter.]
    Senator Hutchison. Mr. Chairman, I am going to introduce 
one, but I think we ought to go ahead let them come up.
    The Chairman. Thank you. I appreciate your advice.
    We have five very important nominations, and I am very 
proud of the folks that we are going to be taking a look at. I 
think it is always spectacular when people give up the 
opportunity to do other things and come into public service 
where you are guaranteed to come out 20 years older and 30 
years poorer, but you do not care because you want a chance to 
serve your country. And that is true, I think, in both 
Democratic and Republican administrations. The sense of public 
service is very deep and very strong and one that we all honor.
    I think with Chris Bertram, the President's nominee to be 
Assistant Secretary for Budget and Programs and Chief Financial 
Officer of the United States Department of Transportation, he 
needs all the encouragement he can possibly get.
    [Laughter.]
    The Chairman. He has been such a valuable resource to our 
Committee that all of this is a little bit bittersweet. He is 
professionally committed to achieving bipartisan compromise and 
he is very effective. Chris has a long history of public 
service in the transportation industry and all kinds of other 
important matters.
    Mr. Daniel Elliott is the President's nominee to serve and 
lead the Surface Transportation Board. You too, sir, only have 
a few minutes to reconsider your whole situation.
    [Laughter.]
    The Chairman. Being the head of the STB is hard. It is just 
plain hard. I do not worry about you in any respect.
    It is the agency that has the task of overseeing economic 
regulation of the railroad industry. It also has to keep in 
mind something called shippers. There are railroads and there 
are people who put things on railroads that give railroads 
their profits and their capacity to proceed. It has been sort 
of a one-sided game in this person's judgment for the last 24 
years or so. Everything has been for the railroads. Very little 
has been for the shippers. I have many, many, many reasons for 
saying that.
    Mr. Elliott comes from the Board of the United 
Transportation Union, where he served as Associate General 
Counsel since 1993. So he knows not just our board, but a 
variety of other railroad boards very, very intimately.
    I have had a lot of concern about railroad shippers. It has 
sort of been the thing I have worked on for 24 consecutive 
years and made no progress whatsoever. I expect it all to 
change under you, sir.
    Ms. Susan Kurland, the President's nominee to be Assistant 
Secretary for Transportation for Aviation and International 
Affairs at the U.S. Department of Transportation, brings 
critical experience as Director of the Airport Division at the 
FAA and extensive work with aviation in the private sector. As 
you are aware, the Committee marked up the FAA reauthorization 
bill to come before the full Senate. I hope you will discuss 
your thoughts on all of this and there will be time for that.
    Mr. Christopher Hart, the President's nominee to be a 
Member of the National Transportation Safety Board, of which 
our Ranking Member was a Member of that Board for a long period 
of time, that being Senator Hutchison, has a long history at 
the FAA and was a Member of the NTSB from 1990 to 1993.
    Are you looking for an appointment?
    [Laughter.]
    Senator Udall. Mr. Chairman, I already have one from the 
good people of Colorado.
    The Chairman. Oh, you do.
    Senator Udall. Yes, sir.
    The Chairman. So you are here to introduce somebody.
    Senator Udall. I am, Mr. Chairman.
    The Chairman. Well, that is good. OK. We want to keep all 
the options open here.
    Finally, Ms. Patricia Cahill, the President's nominee to be 
a Member of the Board of Directors of the Corporation for 
Public Broadcasting and currently serves as General Manager of 
a public radio station which boasts more than 190,000 listeners 
weekly. As a CPB Board Member, Ms. Cahill will take on 
tremendous public trust at a transformative time for broadcast 
media. It will be your job to make sure that public 
broadcasting evolves as media consumption moves beyond 
traditional radio and television and, to be quite frank, is in 
peril.
    It is sort of my bromide that two things in peril in this 
country are classical music and public broadcasting, and they 
track each other. They used to be way up there. Now they are 
down to about 3 percent. Three percent of Americans buy 
classical CDs. Three percent of Americans watch public 
television. However, they are some of the most important 
Americans around, and many of them are in this city.
    So I thank you for coming forward. And before I call on 
those who will introduce the nominees, I obviously call on the 
Ranking Member, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I hope that 
means you have taken NASA off your list of imperiled agencies.
    Thank you, Mr. Chairman, for having this hearing. We are 
really well on our way to filling the agencies and Departments 
that are so important for our country, and I am pleased.
    First, I want to talk about Chris Bertram, and this is my 
introduction of Chris who will be the Assistant Secretary for 
Budget and Programs at the Department of Transportation. He is 
a member of our Committee staff, has been since 2003, and has 
done a wonderful job as our Senior Budget Advisor and 
Professional Staff Member. He also is a native of Fort Worth, 
Texas, and he will bring great talent to the Department of 
Transportation.
    He has handled a wide variety of issues over the years, 
including aviation, surface transportation, auto and highway 
safety, transportation security, and auto fuel efficiency 
standards.
    Prior to joining our Committee, he was the Assistant 
Administrator for Financial Services and Chief Financial 
Officer for the FAA. He also has been a senior aide on the 
House Committee on Transportation.
    Chris has a master's degree in public policy from Harvard 
University and a bachelor's degree from Trinity University in 
San Antonio.
    I am very pleased that he has been given this chance to 
contribute to the Department of Transportation.
    Susan Kurland, nominated for Assistant Secretary of 
Aviation and International Affairs at the Department of 
Transportation, is going to be serving in a very important 
capacity as we craft a plan to move forward in the next 
generation air traffic control system. Our Committee, with 
Senator Rockefeller in the lead, has been working on FAA 
reauthorization, and we are trying very hard to get NextGen up 
and going. We are already behind many parts of the world in 
getting our air traffic control system into the technology of 
today, and that will be a very important focus for Ms. Kurland.
    Daniel Elliott is going to, if confirmed, be designated as 
Chairman of the Surface Transportation Board. I have been 
working with Chairman Rockefeller and others to draft a 
comprehensive STB reauthorization, which we have not had since 
1996. And I think that it is very important that this be a 
balanced consensus measure to address shippers and the rail 
industry concerns because both are very important to our 
economy. So I will look forward to hearing from Mr. Elliott.
    I want to welcome Christopher Hart, nominated for the NTSB. 
As a former Vice Chair of that organization, I know how 
important the role of safety for our country is in the NTSB. 
There are several important traffic, airline, and metro 
investigations going on now. So I hope that we can confirm Mr. 
Hart to that important Board.
    And Ms. Patricia Cahill, as has been said, will be on the 
Board of Directors of the Corporation for Public Broadcasting. 
It is very important. I am surprised that the Chairman says 3 
percent of our country actually listen to it. I think it is 
great too, and particularly I think their children's 
programming on television is the best in the business. So I 
look forward to her as well.
    Thank you, Mr. Chairman. And I think we have a good group 
of nominees here today.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you, Chairman Rockefeller, for holding today's hearing to 
consider several nominees for important positions within the Federal 
Government.
    I think I speak for all Committee members in expressing delight and 
indeed pride that among today's nominees, we are considering Mr. Chris 
Bertram, who has been nominated to serve as Assistant Secretary for 
Budget and Programs at the Department of Transportation (DOT). Chris is 
a member of my Committee staff and also happens to call Fort Worth, 
Texas, ``home.'' We are all thrilled that the President recognizes 
Chris's great talents and professionalism and has reached across the 
aisle to nominate him for this important position at the Department.
    Since 2003, Chris has served as this Committee's Senior Budget 
Advisor and Professional Staff Member, handling a wide variety of 
issues over the years, including aviation, surface transportation, auto 
and highway safety, transportation security, and auto fuel efficiency 
standards. Prior to joining our Committee, he was the Assistant 
Administrator for Financial Services and Chief Financial Officer for 
the Federal Aviation Administration (FAA), where he was the principal 
advisor to the Administrator on the agency's budget, performance 
management, and financial management. Chris has also been a senior aide 
with the House Committee on Transportation and Infrastructure as well 
as having served in various capacities with the Office of Management 
and Budget and in the DOT. He has a Master in Public Policy Degree from 
Harvard University and a Bachelors Degree from Trinity University in 
San Antonio, Texas.
    Today, we will also consider the nomination of Ms. Susan Kurland to 
be Assistant Secretary for Aviation and International Affairs at the 
Department of Transportation. If confirmed, Ms. Kurland will play an 
important role in crafting our national aviation policy. This position 
is especially important right now as we continue the FAA 
Reauthorization process and have tried to craft a plan for moving 
forward in the Next Generation Air Traffic Control system.
    We will also consider that nomination of Mr. Daniel Elliot, who has 
been nominated to serve as a Member of the Surface Transportation Board 
(STB), and if confirmed, will be designated its Chairman. I have been 
working with Chairman Rockefeller and others to draft a comprehensive 
STB reauthorization measure and hope that we can achieve a good, 
balanced consensus measure to address shippers and rail industry 
concerns. Despite efforts by many of us to reauthorize and improve the 
Board over the past years, it has not been reauthorized since its 
creation in January 1996. I look forward to hearing Mr. Elliot's views 
on the important issues facing the Board.
    I would also like to welcome Mr. Christopher Hart, nominated to be 
a Member of the National Transportation Safety Board (NTSB). As a 
former NTSB Vice-Chair, I understand well the important role the Board 
plays in promoting our Nation's transportation safety. There are 
several important transportation accident investigations ongoing at the 
Board--including the investigation of the recent deadly Metro 
accident--so it is appropriate that we move swiftly on Mr. Hart's 
confirmation.
    And last but not least, the only non-transportation related nominee 
here today, I would like to welcome Ms. Patricia Cahill. Ms. Cahill has 
been nominated to serve on the Board of Directors of the Corporation 
for Public Broadcasting. Public broadcasting serves an important role 
in communities. It provides high quality educational programming and 
news to viewers and the CPB makes significant contributions to our 
communities through outreach activities. I look forward to hearing Ms. 
Cahill's vision for public broadcasting today.
    Again, thank you, Mr. Chairman. I look forward to hearing from the 
nominees.

    The Chairman. Thank you very much.
    I now call on the distinguished and incredibly powerful 
Senator from Illinois, a State which I married into.
    [Laughter.]
    The Chairman. He is quite marvelous and he is going to 
introduce Susan Kurland. Senator Durbin?

               STATEMENT OF HON. RICHARD DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Mr. Chairman, thank you very much. From the 
incredibly powerful State of West Virginia, I appreciate that 
introduction, and Senator Hutchison, thank you as Ranking 
Member.
    This is an opportunity for me to introduce Susan Kurland 
for her nomination to the Department of Transportation to serve 
as Assistant Secretary for Aviation and International Affairs. 
She has a long record of service in aviation, which I know is 
important to the Chairman and to all of us, both in Illinois 
and here as part of the Federal Government. Her experience will 
certainly serve her well.
    She began her public service career with the City of 
Chicago, where she was General Counsel to one of the Nation's 
largest aviation systems. She was responsible for overseeing 
all legal issues at O'Hare Airport, the busiest in our Nation. 
Her experience in Chicago caught the attention of President 
Clinton, who asked her to serve as Associate Administrator for 
Airports at the FAA. Her work at the FAA gave her a keen 
understanding of the impact airports have on cities large and 
small. She knows firsthand how crucial airports and reliable 
air service are to the economic success of our communities.
    Commercial air service and modern airports have a direct 
impact on a city's ability to create and attract businesses, 
and I know this Committee is committed to that, as it supports 
and administers the Essential Air Service program, the Federal 
program created to get all of America connected to our national 
and international aviation system.
    Susan, if confirmed, will be directly responsible for 
administering this program. With her Midwestern roots and her 
experience at the local and national level, I am confident she 
will work with the Committee to breathe new life to Essential 
Air Service and the many communities who depend on it.
    Chairman Rockefeller and Members of the Committee, I want 
to thank you for the opportunity to introduce Susan Kurland, 
and as you conduct this hearing and the strong oversight the 
Committee is known for, I can assure you you will find that she 
shares your understanding of the critical role of our national 
aviation system. Thank you.
    The Chairman. Thank you, Senator Durbin.
    Now I would call on Senator McCaskill to introduce Patricia 
Cahill to be a Member of the Corporation for Public 
Broadcasting.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    The Chairman. You have got an hour, if you want to take it.
    Senator McCaskill. An hour?
    The Chairman. Yes, take an hour.
    Senator McCaskill. I am going to bitterly disappoint you. I 
am just going to take a few minutes.
    I want to thank you, Mr. Chairman, for the opportunity to 
introduce an outstanding nominee for the Board of the 
Corporation of Public Broadcasting.
    Patty Cahill I have known and been acquainted with her work 
for many, many years. She has worked in public radio for 40 
years, and it has, in fact, been her career.
    She is currently the General Manager of KCUR-FM, the public 
radio station at the University of Missouri in Kansas City. She 
is also an Assistant Professor at the University, where she 
teaches broadcast management. Her experience at KCUR, her prior 
experience at other radio stations, her service on the Board of 
Directors at National Public Radio, and her previous role at 
the Corporation for Public Broadcasting make her more than 
qualified for this position.
    The programming provided and administered by the 
Corporation for Public Broadcasting is the kind of public/
private partnership that we can all support. Public 
broadcasting continually puts out quality programming that is 
educational, informative, and intellectually stimulating. In an 
age where viewers and listeners have many choices, public 
broadcasting standards are at a higher level and provides the 
public with the in-depth coverage that we just cannot get other 
places. Patty's experience and leadership will help ensure that 
the Corporation for Public Broadcasting continues these high 
standards.
    I am very proud to have nominated her to the board, and I 
certainly urge the Committee and the Senate to confirm her 
nomination. Let me just tell you I think that there are many 
things about Patty that will make her good at this job, but 
from my part of the world, we like to brag on our common sense, 
and Patty Cahill has a boatload of common sense that she will 
bring to this work. I think our country will be well-served by 
it and I know public broadcasting will.
    Thank you, Mr. Chairman, and congratulations to you, Patty 
Cahill. And thank you, Ranking Member, Ms. Hutchison, also.
    The Chairman. Thank you, Senator McCaskill. After that 
introduction, it may not be necessary even to have her give 
testimony. We will just vote her right through.
    Now I want to call on Senator Sherrod Brown to introduce 
Daniel Elliott for the Surface Transportation Board.
    I have to just tell a very bad joke because his brother is 
actually here. Charlie Brown is Sherrod Brown's brother. 
Charlie Brown comes from West Virginia. I have had a very hard 
time adjusting to the fact that there could be anyone other 
than Charlie Brown. So I call Sherrod--I call him Charlie. And 
in return for that elegance on my part, he calls me Nelson.
    [Laughter.]
    The Chairman. A true story. And it has worked out very 
well.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Now I call you ``Mr. Chairman.'' Thank you, 
Mr. Chairman.
    Ranking Member Hutchison, thank you, and Senator Thune and 
Senator McCaskill, thank you. And Jay, thanks very much for 
that introduction.
    I am pleased to offer my strong support for the nomination 
of my fellow Ohioan, Daniel Elliott III, to serve as Chairman 
of the Surface Transportation Board. This is an important 
moment for the STB and for the railroads and the shippers and 
the consumers that count on the Board's fair and impartial 
judgment. We must have a smart, competent Chairman at this 
critical juncture, and I believe and am proud to introduce Dan 
Elliott as that person.
    Before I continue, I should tell you all that Dan Elliott 
is a distant cousin of mine, but in a world where President 
Obama and Vice President Cheney are also distant cousins, I 
think we can agree that a dab of DNA is by no means destiny. So 
you should not hold that against Dan.
    The Committee should also know, however, way more 
importantly, that Dan's credentials speak for themselves. Dan 
has practiced law for some 20 years, 16 of those as Associate 
General Counsel at the United Transportation Union in 
Cleveland. In his role, Dan has argued cases before several 
U.S. circuit courts of appeals, before the STB, before the 
National Mediation Board, and before the National Labor 
Relations Board. He has worked extensively with the parties 
involved in both the shipping and the rail business, and he has 
both the experience and the expertise needed to successfully 
fulfill the difficult role as STB Chairman.
    In addition to his work on behalf of employees, Dan has 
published numerous articles on the Railway Labor Act, as well 
as other facets of the railroad industry.
    Dan is joined by his parents, Dan Elliott and Carolyn Chad 
Giltz, who are sitting behind me and behind him.
    Over the years, I have witnessed Dan's dedication to his 
family, his integrity, and his dedication to the task at hand. 
That is why I am proud of him. I am proud of his public service 
and I look forward to his service as Chair of the STB. I offer 
my wholehearted support for the nomination of Dan Elliott III 
to serve as the Chairman of the Surface Transportation Board.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Udall, before I call on you, I wanted to call on 
Senator Thune, who wants to speak on behalf of one of our 
nominees, Mr. Bertram, Chris Bertram, because he has worked 
diligently on the minority staff, formerly the majority staff. 
Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I did not mean to 
preempt the Senator from Colorado. Maybe it is seniority around 
here or something. Right?
    But I do appreciate the opportunity to say congratulations 
to Chris Bertram and to congratulate all our nominees today for 
their willingness to serve their country. I think there are a 
lot of reasons why one would accept the call to public service. 
I think public service is a very high calling. But it is 
especially true when we are facing troubled economic times, 
when our Nation and Government are facing historic challenges 
that you want to have people involved in public service that 
are qualified and that are dedicated to their jobs. I 
congratulate all of our nominees today for their nominations 
and their willingness to serve.
    But I do, in particular, want to welcome Chris Bertram back 
to the Committee. I first got to know Chris while I served on 
the House Transportation and Infrastructure Committee and we 
were working on a highway bill many, many years ago. And I am 
quite certain that, if there is anything that Chris will not 
miss about being up here, it is writing another highway bill 
and working out formulas between donors and donees. He will 
probably be glad to leave that in the rear view mirror.
    But most recently, as the Ranking Member of the Surface 
Transportation Subcommittee, I have had the pleasure of working 
with Chris on many of the challenging transportation issues 
over the past several months. I really commend the President 
and Secretary LaHood for recognizing Chris with this honor. His 
skills are going to be a great asset to the DOT, although a 
great loss to this Committee. But Chris is the consummate 
professional, Mr. Chairman, as I know you--everybody, I think, 
who serves on this Committee and the staff, all know. And we 
look forward to working with him in a new role and continuing 
to move the issues that are important to transportation and 
infrastructure development in this country forward.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    Now, Senator Mark Udall, I call on you to introduce 
Christopher Hart.

                 STATEMENT OF HON. MARK UDALL, 
                   U.S. SENATOR FROM COLORADO

    Senator Udall. Thank you, Mr. Chairman.
    I enjoyed, I think as everybody did here, the comments you 
directed at Senator Brown and the ones that he has directed 
back at you. I know in Arizona, enough Udalls have served in 
public office that there is an old saying that you cannot spit 
without hitting a Udall. I do not know, when it comes to the 
Rockefeller family, what is said in New York and West Virginia 
and Arkansas. But at some point, you might be able to elaborate 
further.
    The Chairman. Oh, we are just sort of Eastern elitists.
    [Laughter.]
    Senator Udall. On that note, Mr. Chairman, thank you for 
inviting me here today, and Ranking Member Hutchison, Senator 
McCaskill, Senator Thune. It is my distinct honor to introduce 
and recommend for your favorable consideration a very 
impressive Coloradan, Christopher Hart. I am sure he would 
express great affection for West Virginia and Texas and South 
Dakota and Missouri, if you ask him, as well.
    His resume, if you look at it, is a testament to his 
commitment to and expertise in the area of transportation 
safety. What gives me the most confidence, Mr. Chairman, is his 
ability to serve effectively on the NTSB, as he served in that 
very capacity before. He had an impressive private career which 
was preceded by the winning of an engineering degree at 
Princeton and then a law degree at Harvard, and then he went 
into private practice.
    He turned to public service in 1990, and served on the NTSB 
in that era. And since then, he has served in various roles at 
the National Highway Traffic Safety Administration, the Federal 
Aviation Administration, and he was most recently serving as 
the Deputy Director of the Air Traffic Safety Oversight Service 
at the FAA.
    In addition to being an authority on transportation safety, 
he is a pilot himself, with almost 3,000 hours. And I am sure 
that his experience flying will really add to his understanding 
of transportation safety issues and make him that much more 
effective in his role at the NTSB.
    So it is clear, Mr. Chairman, he is very well qualified, 
has a remarkable background, and I hope the rest of the 
Committee will be as impressed with him as I have been. Should 
he be confirmed, his wealth of experience will ensure that we 
have a safer transportation system.
    Thank you for inviting the Senator from Colorado over here.
    The Chairman. Thank you, Senator. Thank you for taking the 
time.
    Now, we have three chairs, but those are all for Senators. 
So we have to perform a little identification switch, and then 
if I could get the nominees all to come and sit at the table 
and then each give their opening statements, which are already 
a part of the record, I would be grateful.
    Mr. Bertram, in that you have sort of an inside track here, 
why do you not lead off?

              STATEMENT OF CHRISTOPHER P. BERTRAM,

            ASSISTANT SECRETARY-DESIGNATE FOR BUDGET

            AND PROGRAMS AND CHIEF FINANCIAL OFFICER

                  DEPARTMENT OF TRANSPORTATION

    Mr. Bertram. Thank you, Mr. Chairman, Senator Hutchison, 
and Senator Thune. It is a great honor for me to appear before 
you today as the President's nominee for the position of 
Assistant Secretary of Budget and Programs and Chief Financial 
Officer at the Department of Transportation.
    The Department of Transportation's annual budget exceeds 
$70 billion. This funding supports programs designed to improve 
transportation safety, modernize the country's infrastructure, 
and improve the operation of transportation systems. As 
Assistant Secretary and CFO, one of my top priorities would be 
to ensure that this funding is managed as effectively as 
possible so that the taxpayers can be assured that their 
Government is investing their transportation dollars wisely.
    If confirmed, I look forward to working closely with the 
Congress on many of the important transportation challenges 
facing our country, including the modernization of the air 
traffic control system, the reauthorization of the Department's 
surface transportation programs, and improving transportation 
safety.
    Finally, I would like to thank the members and staff of 
this Committee for the opportunity to have worked with them 
over the last 6 years on important and interesting issues and 
legislation. This Committee has improved the Nation's 
transportation systems and promoted the safety of the traveling 
public, and I will always appreciate having played a supporting 
role in your many legislative accomplishments.
    I will be happy to respond to any questions. Thank you.
    [The prepared statement and biographical information of Mr. 
Bertram follows:]

   Prepared Statement of Christopher P. Bertram, Assistant Secretary-
    Designate, for Budget and Programs and Chief Financial Officer, 
                      Department of Transportation

    Thank you, Mr. Chairman, Senator Hutchison and Members of the 
Committee. It is a great honor for me to appear before you today as the 
President's nominee for the position of Assistant Secretary of Budget 
and Programs and Chief Financial Officer (CFO) at the Department of 
Transportation.
    The Department of Transportation's annual budget exceeds $70 
billion. This funding supports programs designed to improve 
transportation safety, modernize the country's infrastructure, and 
improve the operation of transportation systems. As Assistant Secretary 
and CFO, one of my top priorities would be to ensure that this funding 
is managed as effectively as possible so the taxpayers can be assured 
that their government is investing their transportation dollars wisely.
    If confirmed, I look forward to working closely with the Congress 
on the many important transportation challenges facing our country 
including the modernization of the air traffic control system, the 
reauthorization of the Department's surface transportation programs, 
and improving transportation safety.
    Finally, I would like to thank the members and staff of this 
Committee for the opportunity to have worked with them over the last 6 
years on important and interesting issues and legislation. This 
Committee has improved the Nation's transportation systems and promoted 
the safety of the traveling public and I will always appreciate having 
played a supporting part in your many legislative accomplishments.
    I will be happy to respond to any questions.
    Thank you.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Christopher Patrick Bertram.
        Nickname: Christoph and Chris.

    2. Position to which nominated: Assistant Secretary for Budget and 
Programs, and Chief Financial Officer, Department of Transportation.
    3. Date of Nomination: July 9, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: DSOB 560, Washington, D.C. 20515.

    5. Date and Place of Birth: January 14, 1964; Heilbronn, West 
Germany.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Catherine Drissel Bertram, Attorney, Regan Zambri & 
        Long, PLLC, Suite 350, 1919 M Street, NW, Washington, D.C. 
        20036.

        Children: Paul Manfred Bertram, 16; Anne Jacqueline Bertram, 
        13.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Master in Public Policy, John F. Kennedy School of Government, 
        Harvard University, Cambridge, Massachusetts; 1988.

        Bachelor of Arts, Trinity University, San Antonio, Texas; 1985.

    8. List all post-undergraduate employment, and highlight all 
management- level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Senior Budget Advisor and Professional Staff Member, Committee 
        on Commerce, Science, and Transportation, U.S. Senate, 2003 to 
        present.

        Currently responsible for all budgetary issues affecting 
        programs within the Committee's jurisdiction. Legislative 
        accomplishments include: the Titles in the 2005 multi-year 
        Highway Reauthorization Bill covering highway, auto, truck, and 
        hazardous materials safety; the 2003 Federal Aviation 
        Administration (FAA) and aviation security legislation; the 
        2004 and 2007 aviation security provisions in legislation 
        implementing the recommendations of the 9/11 Commission; the 
        2008 Amtrak reauthorization and rail safety legislation; and 
        the 2007 legislation strengthening the Corporate Average Fuel 
        Economy (CAFE) program.

        Assistant Administrator for Financial Services and Chief 
        Financial Officer, Federal Aviation Administration, U.S. 
        Department of Transportation, 2001 to 2003.

        Served as the agency's senior official responsible for the 
        development and implementation of the agency's budget, 
        performance management, accounting and financial management. In 
        this position I had responsibility for the management of a 
        combined operating and capital budget of over $13 billion for 
        the 50,000-person agency. I was able to obtain and maintain a 
        clean audit of the agency's financial statements. The position 
        required me to serve as the chief liaison for financial issues 
        with the Office of the Secretary of Transportation, the Office 
        of Management and Budget, and the Congressional Appropriations 
        Committees.

        Staff Director, Committee on Transportation and Infrastructure 
        Subcommittee on Highways and Transit, U.S. House of 
        Representatives, 1996 to 2001.

        In this position I served as the senior staff member overseeing 
        the activities and staff of the Subcommittee on Highways and 
        Transit. I was responsible for drafting major legislation 
        including the Transportation Equity Act for the 21st Century 
        (TEA 21), the Aviation Investment and Reform Act (AIR 21) and 
        the Motor Carrier Safety Act of 1999.

        Budget Examiner, Transportation Branch, Office of Management 
        and Budget 1990 to 1994 and 1995 to 1996.

        As a budget examiner, my areas of responsibility included the 
        Federal aviation, highway, transit, and Coast Guard programs.

        Project Manager, Budget Office, City of Dallas, 1995.

        Budget Specialist, Dallas Public Schools, 1995.

        Program Analyst, Office of Programs and Evaluation, U.S. 
        Department of Transportation, 1988 to 1990.

        I served as analyst in the Office of the Secretary on policy 
        and budget issues related to transportation programs.

        Transportation Planner, Maryland Department of Transportation, 
        1988.

        Teaching Assistant, Harvard University, 1987 to 1988.

        Loan Analyst, Colonial Savings, Fort Worth, TX, 1986.

        Clerk, L&M Bookstore, San Antonio, TX, 1985 to 1986.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Bethesda Chevy Chase Isaak Walton League, 2008 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Candidate for County Surveyor, Bexar County Texas 1986, there 
        is no outstanding campaign debt.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        No contribution over $500.

        2006--Volunteered in Ohio for Senator Mike DeWine.

        2008--Volunteered during South Carolina Presidential Primary 
        for Senator John McCain.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Presidential Management Intern--1988 to 1990.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    In my positions for the Senate Commerce Committee and the House 
Transportation and Infrastructure Committee I have frequently appeared 
on panels before groups to describe the legislation work of the 
Committees. These were not prepared remarks.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        House Committee on Transportation and Infrastructure hearing on 
        the Status of the Highway Trust, 1996.

        House Committee on Transportation and Infrastructure hearing on 
        the Woodrow Wilson Bridge, 1999.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe that my professional experience in Federal budgeting and 
finance in both the executive and legislative branches of the Federal 
Government is a good background for the position of Assistance 
Secretary for Budget and Programs, and Chief Financial Officer. I have 
over 20 years of experience in the area of transportation policy and 
budgeting involving all major modes of transportation.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Proper management and accounting controls are critical to the 
success of any large organization, and I am committed to ensuring that 
such controls are in place and maintained at the Department of 
Transportation. In 1990. the Congress passed, and the President signed 
into law, the Chief Financial Officers (CFO) Act. This act established 
a CFO in each cabinet department and at major agencies and required 
improved financial controls and reporting. Implementing the 
requirements of the CFO Act at the Department of Transportation is one 
of the most important responsibilities of the position I am being 
nominated for. As the CFO for the Federal Aviation Administration (FAA) 
I had a similar role. As CFO, I was responsible for managing over 100 
employees and advised the Administrator on management issues affecting 
the whole agency.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        Reauthorization of Aviation and Surface Transportation 
        Programs: The authorization act governing the Department's 
        surface transportation programs expire at the end of this 
        Fiscal Year. The aviation authorization has already expired and 
        the FAA's programs are operating under short-term extensions. 
        The reauthorization process is necessary to resolve many 
        complicated and contentious issues.

        Financial Viability of Transportation Trust Funds: The highway 
        trust fund faced a shortfall in funds East year that required 
        an emergency infusion of S8 billion from the general fund. A 
        further infusion will be required this before this August. The 
        balance in aviation trust fund has recently reached historic 
        lows. The majority of the Department's infrastructure programs 
        are funded from these two trust funds. The financial condition 
        of the trust funds puts these programs in peril. The Department 
        will have to work with the Office of Management and Budget and 
        the Congress to develop long term financing solutions that will 
        ensure the viability of these important infrastructure 
        programs.

        Oversight of ARRA Funding: The Department of Transportation 
        received $48.1 billion in Recovery Act funds. Although much of 
        it was appropriated for established transportation programs, a 
        significant amount was appropriated for new programs, such as 
        high speed rail. The Department will have to carefully Monitor 
        the Expenditure of These Funds.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am vested in the Federal Employee Retirement System (FERS) and 
have a Federal Thrift Savings Plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered with the Department's 
ethics official and that has been provided to this Committee. I am not 
aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered with the Department's 
ethics official and that has been provided to this Committee. I am not 
aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my professional positions in the House of Representatives, the 
U.S. Senate, and at the Federal Aviation Administration I have engaged 
in crafting legislation and advocated that legislation be crafted in 
certain ways. I have worked on legislation in following areas: the 
Highway Bill, the FAA authorization, transportation security, 
transportation safety, Amtrak, auto fuel economy, and appropriations.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may he disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identity potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered with the Department's 
ethics official and that has been provided to this Committee.

                            C. LEGAL MATTERS

    I. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    Even though I was not named as a party, there was one case against 
the Department of Transportation that included claims about my actions 
as the Assistant Administrator for Financial Services and Chief 
Financial Officer of the Federal Aviation Administration (FAA). In 
Patrick J. Heidenthal vs. Secretary, Mr. Heidenthal claimed I did not 
select him for a position because of his age. I maintained that he was 
not the most qualified person for the position. The case was settled 
after I left the FAA with Mr. Heidenthal agreeing to retire and to a 
payment to cover his legal fees.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        RESUME OF CHRIS BERTRAM

Work Experience
    U.S. Senate, Committee on Commerce, Science, and Transportation, 
Senior Budget Advisor and Professional Staff Member/Staff Director of 
Subcommittee on Surface Transportation and Merchant Marine, 2003 to 
Present.

        Advised Committee members on the development and execution of 
        an aggressive legislative agenda on all aviation issues, 
        including aviation security and safety.

        Legislative accomplishments include the 2003 aviation and 
        aviation security legislation, the Century of Aviation 
        Reauthorization Act, and the 2004 and 2007 aviation security 
        provisions in legislation implementing the recommendations of 
        the 9/11 Commission.

        Staff Director of Subcommittee responsible advising Committee 
        members on all surface transportation issues under the 
        jurisdiction of the Committee, including highway and auto 
        safety, auto fuel efficiency standards (CAFE), freight rail 
        safety and economics, Amtrak, pipeline safety, maritime 
        programs, and hazardous materials safety.

        Legislative accomplishments include the Committee's Safety 
        Title to the Multi-year Highway Reauthorization Bill covering 
        highway, auto, truck, and hazardous materials safety.

        Responsible for all budgetary issues affecting programs within 
        the Committee's jurisdiction.

        Represented Committee Members in meetings with Members of 
        Congress, the Executive Branch representatives and outside 
        groups.

        Organized Committee hearings, including identifying expert 
        witnesses, preparing background material, and developing lines 
        of questioning and advised and assisted Committee Members 
        during floor debates.

    Federal Aviation Administration, Assistant Administrator for 
Financial Services and Chief Financial Officer, 2001-2003.

        Senior official responsible for the development and 
        implementation of the agency's budget, performance management, 
        accounting and financial management.

        Daily and long-term responsibility for management of a combined 
        operating and capital budget of over $13 billion for the 
        50,000-person agency.

        Obtained and maintained a clean audit of the agency's financial 
        statements.

        Liaison for financial issues with the Office of the Secretary 
        of Transportation, and the Office of Management and Budget.

        Negotiated final funding levels for FAA programs and other 
        budgetary issues with Congressional Appropriations Committees.

        Supervised and managed CFO Office with almost 200 employees and 
        annual budget of $60 million.

    U.S. House of Representatives, Committee on Transportation and 
Infrastructure, Subcommittee on Highways and Transit, Staff Director--
Majority, 1996-2001.

        Served as the senior staff member overseeing the activities and 
        stiff of the Subcommittee on I Highways and Transit.

        Drafted mayor legislation in including the Transportation 
        Equity Act for the 21st century(TEA 21), the Aviation 
        Investment and Reform Act (AIR 21) and the Motor Carrier Safety 
        Act of 1999.

        Policy expert on the effect of the Federal budget process on 
        transportation programs.

        Expertise in the Federal highway, transit, highway safety, 
        pipeline safety and trucking safety programs.

    Office of Management and Budget, Budget Examiner, 1990-1996.

        Areas of responsibility included the Federal aviation, highway, 
        transit, and Coast Guard programs.

        Supervised team of OMB analysts during the reauthorization of 
        surface transportation legislation.

        Responsible for developing Administration policy proposal on 
        innovative financing for transportation.

        Twice awarded professional achievement awards.

        Took one-year sabbatical to work in the finance offices sit 
        City and School System of Dallas.

    U.S. Department of Transportation, Office of Budget and Programs, 
Budget and Program Analyst, 1988-1990.

        Served as analyst in the Office of the Secretary on policy and 
        budget issues related to transportation programs.

        Developed cost estimates for the implementation of the 
        Americans with Disabilities Act (ADA).
Education

    Harvard University, Cambridge, MA., 1986-1988.

        Master in Public Policy.

        Selected as Presidential Management intern.

    Trinity University, San Antonio, TX., 1982-1985.

        Bachelor of Art--History and European Studies.

    The Chairman. Thank you, Mr. Bertram.
    Now we turn to Susan Kurland.

STATEMENT OF SUSAN L. KURLAND, ASSISTANT SECRETARY-DESIGNATE OF 
       AVIATION AND INTERNATIONAL AFFAIRS, DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Kurland. Thank you, Chairman Rockefeller, Ranking 
Member Hutchison, and Senator Thune, for the opportunity to 
appear before you today. I am deeply honored to be here as 
President Obama's nominee for Assistant Secretary for Aviation 
and International Affairs for the Department of Transportation 
and greatly appreciate the confidence and support of Secretary 
LaHood. If confirmed, I look forward to working closely with 
the Members of this Committee and your staffs.
    Before I would begin, I would like to take the opportunity 
to introduce some of my family who are here with me today: my 
sister, Judy Biber; my brother and sister-in-law, Jacob and 
Audrey Kurland; and my niece and nephew, Rebecca and Marshall 
Kurland. I would also like to thank my late parents, Milton and 
Pearl Kurland, whose love and support encouraged me along the 
path which brought me here today.
    By way of background, I have over 20 years of experience in 
senior level government and private sector aviation roles, 
including airport, airline, local government, Federal 
Government, and airport infrastructure financing. I spent the 
first several years of my career as an Attorney, both in 
government and private practice and later as General Counsel 
for one of the country's major airport systems. There I saw 
firsthand the vital economic role that aviation plays not only 
nationally but also in our local and regional economies. From 
there, I was honored to serve as Associate Administrator for 
the Federal Aviation Administration, leading the FAA's national 
airport program. I later worked in-house as Deputy General 
Counsel at an airline on a broad range of issues. In my current 
position in public finance, I deal with airport infrastructure 
financing and municipal finance.
    These positions have given me a unique combination of 
aviation experience from several different perspectives and 
many opportunities to see and work through different 
viewpoints. I have learned firsthand the importance of 
cooperation and working with stakeholders, and if confirmed, I 
would bring the benefit of these experiences and an open mind 
to this position.
    As the Committee knows well, there are many challenges and 
opportunities that face us both in the domestic and 
international aviation arenas, as well as in the areas of 
international transportation policy crossing all the modes of 
transportation. The safety of all the facets of our national 
aviation system continues to be the Department of 
Transportation's number one aviation priority. Also key is the 
modernization of the air traffic control system and delivery of 
the NextGen initiatives in order to reduce congestion and 
increase the efficiency of our aviation system.
    Among other critical issues that we face are ensuring that 
consumers have the benefits of vigorous air carrier 
competition, services, and fares. This is especially so during 
these very difficult economic times. It is important to work to 
preserve and improve air service to small and rural communities 
through programs such as the Essential Air Service program. 
With respect to international aviation, working to enhance the 
competitiveness of our Nation's air carriers, other 
transportation providers and manufacturers globally is 
essential. Continuing the Open Skies policy and maximizing new 
opportunities is vital to continuing opening up foreign markets 
to U.S. carriers and improving air service for travelers, 
shippers, and our communities.
    If confirmed, I look forward to working with the Members of 
this Committee and your staffs regarding these and other 
critical issues that are before us.
    Mr. Chairman, thank you again for scheduling this hearing 
and I would be pleased to answer any questions that you may 
have. Thank you.
    [The prepared statement and biographical information of Ms. 
Kurland follows:]

 Prepared Statement of Susan L. Kurland, Assistant Secretary-Designate 
  of Aviation and International Affairs, Department of Transportation

    Thank you Chairman Rockefeller, Ranking Member Hutchison, and 
Members of the Committee for the opportunity to appear before you 
today. I am deeply honored to be here as President Obama's nominee for 
Assistant Secretary for Aviation and International Affairs for the 
Department of Transportation, and greatly appreciate Secretary LaHood's 
confidence and support. If confirmed, I look forward to working closely 
with the Members of this Committee and your staffs.
    Before I begin I would like to introduce some of my family who are 
here with me today, my sister Judy Biber, my brother and sister-in-law 
Jacob and Audrey Kurland and my niece and nephew, Rebecca and Marshall 
Kurland. I would also like to thank my late parents, Milton and Pearl 
Kurland whose love and support encouraged me along the path that has 
brought me here today.
    By way of background, I have over twenty years of experience in 
senior level government and private sector aviation roles--including 
airport, airline, local government, Federal Government, and airport 
infrastructure financing. I spent the first several years of my career 
as an Attorney both in government and private practice, and later as 
general counsel for one of the country's major airport systems. There I 
saw firsthand the vital economic role that aviation plays, not only 
nationally but also in our local and regional economies. From there I 
was honored to serve as Associate Administrator for Airports for the 
Federal Aviation Administration, leading the FAA's national airport 
program. I later worked in-house as Deputy General Counsel at an 
airline on a broad range of issues. In my current position in public 
finance, I deal with airport infrastructure financing and municipal 
finance. These positions have given me a unique combination of aviation 
experience from several perspectives and many opportunities to see and 
work through different viewpoints. I have learned first-hand the 
importance of cooperation and working with stakeholders. If confirmed, 
I would bring the benefit of these experiences and an open mind to this 
position.
    As the Committee knows well, there are many challenges and 
opportunities facing us in both the domestic and international aviation 
arenas, as well as in the areas of international transportation policy 
involving all modes of transportation. The safety of all facets of our 
national aviation system continues to be the Department's number one 
aviation priority. Also key is the modernization of the air traffic 
control system through delivery of NextGen initiatives in order to 
reduce congestion and increase the efficiency of our aviation system.
    Among other critical issues that we face are ensuring that 
consumers have the benefits of vigorous air carrier competition, 
services and fares. This is especially so during these difficult 
economic times. It is important to work to preserve and improve air 
service to small and rural communities through programs such as the 
Essential Air Service program. With respect to international aviation, 
working to enhance the competitiveness of our Nation's air carriers, 
other transportation providers and manufacturers globally is essential. 
Continuing the Open Skies policy and maximizing new opportunities is 
vital to continue opening up foreign markets to U.S. carriers and 
improving air service for travelers, shippers and our communities.
    If confirmed, I look forward to working with the Members of this 
Committee and your staffs regarding these and the other critical issues 
before us. Mr. Chairman, thank you again for scheduling this hearing 
and I would be pleased to answer any questions you and the Committee 
may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Susan L. 
Kurland.
    Position to which nominated: Assistant Secretary for Aviation and 
International Affairs, U.S. Department of Transportation.
    3. Date of Nomination: July 7, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 55 W. Monroe, Ste. 3500, Chicago, IL 60603.

    5. Date and Place of Birth: East Chicago, IN; November 18, 1951.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Single; no children.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A.--Brandeis University--1969-1973.

        JD--Boston University School of Law--1973-1976

    8. List all post-undergraduate employment, and highlight all 
management- level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Jefferies and Company, Inc. (3/2009 to present), Managing 
        Director, Municipal Securities Group.

        DEPFA First Albany Securities (2004-3/2009), Head of Chicago 
        Group, Public Finance.

        Kurland Associates, LLC (2002-2004), President (Aviation 
        Consulting Firm).

        USAirways, Inc. (1999-2001), Vice President and Deputy General 
        Counsel.

        Federal Aviation Administration (1996-1999), Associate 
        Administrator for Airports.

        City of Chicago, Department of Law (1987-1996), Deputy 
        Corporation Counsel--Aviation, Contracts and Finance; Chief 
        Assistant Corporation Counsel--Contracts; Senior Attorney 
        Supervisor--Contracts.

        Ancel, Glink, Diamond, Murphy & Cope, P.C. (1982-1987), 
        Attorney Specializing in Municipal Law.

        City of Newton Law Department (1976-1982), Assistant City 
        Solicitor for City Departments and the Newton School Committee.

        Solomon, Rosenfeld, Eliot & Stiefel (Summer 1974, 1975), Summer 
        law clerk.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Transportation Research Board (TRB)--Committee on Aviation 
        Economics and Forecasting (2007-2008).

        TRB Airport Cooperative Research Program (ACRP) Review Panel 
        regarding the Impact of Jet Fuel Price Uncertainty on Airport 
        Planning and Development (2008-2009).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Airports Council International--North America (2004-present), 
        Vice-Chairman of Associates Board (2007), Chairman of 
        Associates Board (2008), Immediate Past Chairman of Associates 
        Board and Associates Board Liaison to Board of Directors 
        (2009).

        Jefferies & Company, Inc.--Chicago, IL, Managing Director, 
        Municipal Securities Group (3/2009-present).

        DEPFA First Albany Securities--Chicago, IL, Head of Chicago 
        Group, Public Finance, Director, Senior Vice President (First 
        Albany Capital) (2004-3/2009).

        Kurland Associates, LLC--Washington, D.C., President (Aviation 
        Consulting Firm) (2002-2004).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Airports Council International--North America (2004-present), 
        Vice-Chairman of Associates Board (2007), Chairman of 
        Associates Board (2008), Immediate Past Chairman of Associates 
        Board and Associates Board Liaison to Board of Directors 
        (2009), Represented City of Chicago on the Legal Committee 
        (1990-1996), Chairman of the Legal Committee from January-April 
        1996, does not restrict membership.

        American Association of Airport Executives--Member (2002-2007), 
        does not restrict membership.

        Air Transport Association by virtue of my employment by U.S. 
        Airways, served on chief legal officers' and litigation 
        committees (1999-2001), does not restrict membership.

        ABA Air and Space Forum Governing Committee (2002-2004), does 
        not restrict membership.

        Aero Club of Washington, D.C. (late 1998 and early 2000). Also 
        served as Federal Government liaison during part of my tenure 
        at FAA; does not restrict membership.

        International Women in Aviation (2004-2008), restricts 
        membership based on gender.

        Lake Shore Drive Synagogue--(mid-1980s to late-1990s)--member 
        and member of Board of Directors part of the time, restricts 
        membership based on religion.

        City Club of Chicago (2007-present), does not restrict 
        membership.

        Women in Public Finance (2006-present), does not restrict 
        membership.

        I've also been a member of the American Bar Association, the 
        Chicago Bar Association and the National Association of Bond 
        Lawyers, none of which restricts membership.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I ran for and was elected as a town meeting member in Brookline, 
MA, from 1979-1981. I have no outstanding campaign debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.




    2000

    DNC Services Corporation/Democratic            $1,000
     National Committee
    Gore/Lieberman General Election Legal and        $750
     Accounting Compliance Fund
    Committee to Re-elect Tony Williams              $500

    2007

    Obama for America                              $1,000
    Obama for America                              $1,300

    2008

    Obama Victory Fund                             $2,300
    Obama Victory Fund                             $2,300



    I volunteered for the Obama campaign as a member of the 
Transportation Policy Committee and Chair of the Aviation Subcommittee. 
I canvassed door-to-door in Iowa and Indiana; phone-banked in Chicago 
and Virginia; accompanied a friend who was speaking on behalf of the 
Campaign in Florida: and monitored a poll in Indiana on Election Day. I 
also spoke at the National Business Travel Association conference in 
July 2008 as a surrogate for the Campaign.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Graduated Phi Beta Kappa from Brandeis University.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications

        ``Annexation and Annexation Agreements'', Stewart H. Diamond, 
        co-author, Chapter 11 in Illinois Municipal Law (Illinois 
        Institute for Continuing Legal Education, 1987).

        ``Council Practices and Procedures'', Louis Ancel and Stewart 
        H. Diamond, co-authors, Chapter 2 in Illinois Municipal Law 
        1984 Supplement (Illinois Institute for Continuing Legal 
        Education, 1984).

        ``A Guide for Loss Reduction for Elected Officials and 
        Managerial Personnel'', John B. Murphey and Stewart H. Diamond, 
        co-authors (Handbook prepared for the Intergovernmental Risk 
        Management Agency, 1984).

        ``Notice of Injury Forms--What Are They? What do you Do With 
        Them?'', Illinois Municipal Review (September, 1983).

        ``Democratization in Concord: A Political History, 1750-1850'', 
        in Concord, ed. by David Hackett Fischer (Waltham, 1983); and 
        in Chronos, A Journal of Social History (Brandeis University, 
        Fall, 1983).
Speaker/Panelist Appearances--Airports/Airport Finance

    In my capacity as an employee for the City of Chicago, FAA, Kurland 
& Associates, U.S. Airways, and Jefferies and Company, from 1987 to 
present. I have delivered numerous speeches and presentations to 
various groups and organizations such as ACI-NA, ABA--Air and Space 
Forum, AAAE, NASAO and TRB on topics such as airport legal issues, 
airport improvement grants, passenger facility charges, and municipal 
markets and their impact on airport infrastructure finance.
    Below are a few examples of my recent appearances:

        May 2009--at the ACI-NA Legal Committee meeting I spoke about 
        the current municipal market and its impact on airport 
        financings.

        April 2009--at the ACI-NA Commissioners' Conference I spoke 
        about the current municipal market and its impact on airport 
        financings.

        July 2008--I spoke at the National Business Travel Association 
        conference as a surrogate for the Obama campaign. Topic 
        involved talking about potential aviation issues that would be 
        facing a new Administration.

        January 2007--I moderated a panel regarding airport finance at 
        the TRB annual conference.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        Committee: Senate Commerce, Science, and Transportation.
        Date: May 14, 1996.
        Testimony: David R. Hinson, Administrator, FAA.
        Topic: FAA and AIP Reauthorization.
        Role: Technical Assistance.

        Committee: Senate Appropriations.
        Date: April 16, 1997.
        Testimony: Barry L. Valentine, Acting Administrator, FAA.
        Topic: Transportation And Related Agencies FY98, Transportation 
        Appropriations.
        Role: Technical Assistance.

        Committee: Senate Commerce, Science, and Transportation.
        Date: July 21, 1998.
        Testimony: Kenneth R. Wykle, Administrator, FHWA.
        Topic: Discretionary Spending At Commerce, Transportation 
        Depts.
        Role: Technical Assistance.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe in public service. With over twenty years of senior level 
government and private sector aviation roles, I have a unique 
combination of aviation experience from many different perspectives--
including airline, airport, local government, Federal Government, and 
airport infrastructure financing. In addition, I believe I have strong 
leadership and management skills, and am a consensus builder. I wish to 
serve in the position of Assistant Secretary for Aviation and 
International Affairs because I believe that my background and skill 
set fits well with the programs and responsibilities under the purview 
of this position. If confirmed, I believe that I could contribute to 
the important efforts of President Obama, Secretary LaHood, and 
Congress in these areas.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe proper management and accounting controls are critical 
and, if I am confirmed, I will review existing procedures and institute 
any changes as appropriate. I have experience managing large and 
diverse organizations. As FAA Associate Administrator for Airports, I 
led FAA's airport line of business, managing a 500-person nationwide 
staff. At U.S. Airways I managed day-to-day affairs of a nine-attorney 
in-house law department of a major U.S. airline. As general counsel for 
the City of Chicago's Airport System, I managed the attorneys 
(including outside counsel) providing legal services for the City's 
airports.
    20. What do you believe to be the top three issues facing the 
department/agency and why?

        (1) Safety of the Nation's aviation system continues to he the 
        number one aviation and departmental priority. This includes 
        the regulation and oversight of air carrier operations, 
        maintenance and repairs, and runway safety.

        (2) Ensuring that consumers reap the benefits of robust air 
        carrier competition, service and fares. Two important 
        components are service to rural communities and international 
        service through open skies agreements to ensure global 
        competition.

        (3) Modernization of the air traffic control system through 
        delivery of NextGen initiatives in order to reduce congestion 
        and delays within our aviation system.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Pursuant to an April 2009 agreement, I will receive deferred 
compensation in the amount of $17,000 from Jefferies & Company in 
February, 2010.
    On June 24, I became eligible under Jefferies & Company's policies 
to participate in the firm's 401K program, which is supposed to take 
effect on my last paycheck in July. If confirmed, I would roll over the 
401K.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will he resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I formed the Coalition of American-Owned Security Companies, an 
informal group of four companies that sought implementation of the 
airport screening opt-out program under the Aviation and Transportation 
Security Act. The coalition ceased activities in early 2004.
    I volunteered for the Obama campaign as a member of the 
Transportation Policy Committee and Chair of the Aviation Subcommittee. 
I also spoke at the National Business Travel Association conference in 
July 2008 as a surrogate for the campaign.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined for a breach of ethics by, or 
been the subject of a complaint to any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In 1997, I filed an action to dissolve a business relationship with 
Sandra Roberts in the Circuit Court of Cook County, IL. In 2000, the 
relationship was dissolved and the real estate owned by the partners 
was sold.
    In 2002, the Estate of Thomas Jordan filed suit in the Circuit 
Court of Cook County to recover on three promissory notes allegedly 
executed by Sandra Roberts and allegedly guaranteed by Brewster Creek 
Kennels, Inc., Brewster Creek Associates (the Partnership), Sandra 
Roberts individually and as a partner in the Partnership, and Susan 
Kurland, as a partner in the Partnership. The trial court ruled in my 
favor. The Estate of Thomas Jordan appealed the decision and the 
Appellate Court of Illinois, First Judicial Circuit, affirmed the 
circuit court's ruling in my favor.
    Given the regulated nature of their work, First Albany Capital 
(after acquisition of the municipal finance group of First Albany, the 
remaining firm became Broadpoint Capital), DEPFA First Albany 
Securities, U.S. Airways, and the FAA have been involved in a number of 
litigation and regulatory matters. I do not believe I was ever named in 
any of the suits while I was a senior official at these organizations, 
with the exception of city of Los Angeles v. United States FAA, 239 
F.3d 1033, where I was named in my official capacity while Associate 
Administrator for Airports of FAA (I was unaware of this case until a 
public records search was done).
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       RESUME OF SUSAN L. KURLAND

Professional Experience

    Jefferies & Company, Inc.--Chicago, Illinois, Managing Director, 
Municipal Securities Group, 3/2009-present.

    DEPFA First Albany Securities--Chicago, Illinois, Head of Chicago 
Group, Public Finance, 2004-3/2009.

    Kurland Associates, LLC--Washington, D.C., President (Aviation 
Consulting Firm), 2002-2004.

    US Airways, Inc.--Arlington, Virginia, Vice President and Deputy 
General Counsel, 1999-2001.

    Federal Aviation Administration--Washington, D.C., Associate 
Administrator for Airports (White House Appointment), 1996-1999.

    city of Chicago Department of Law--Chicago, Illinois, Deputy 
Corporation Counsel--Aviation, Contracts and Finance; Chief Assistant 
Corporation Counsel--Contracts; Senior Attorney Supervisor--Contracts, 
1987-1996.

    Ancel, Glink, Diamond, Murphy & Cope, P.C.--Chicago, Illinois, 
Attorney Specializing In Municipal Law, 1982-1987.

    city of Newton Law Department--Newton, Massachusetts, Assistant 
City Solicitor for City Departments and the Newton School Committee, 
1976-1982.
Selected Achievements
Leadership and Management

        Head of DEPFA First Albany and now Jefferies' Chicago municipal 
        finance practice: clients include the City of Chicago, Chicago 
        Public Schools, and Illinois Housing Development Authority. 
        Also serve as a senior member of firm's airport finance group 
        and have led various airport financing assignments for firm 
        clients including Denver International Airport, Tucson Airport 
        and Jacksonville Airport Authority.

        Formed the Coalition of American-Owned Security Companies 
        (CASC). CASC sought implementation of the airport screening 
        opt-out program under the Aviation and Transportation Security 
        Act.

        Managed day-to-day affairs of nine-attorney in-house law 
        department of major U.S. airline with approximately $8.0 
        billion in operating revenues and 44,000 employees. Managed 
        outside counsel, litigation, budgetary and personnel matters, 
        and supervised director of security department.

        Led Federal Aviation Administration's (FAA) national airport 
        program, managing approximately 500 person nationwide staff, 
        with annual operating budget exceeding $43 million. 
        Administered $1.95 billion annual airport grant and $1.4 
        billion annual passenger facility charge (PFCs) programs that 
        provide funding for airport capital improvements including 
        security, airside, and other capacity infrastructure. Directed 
        staff responsible for formulating the national airport systems 
        plan.

        As General Counsel for the City of Chicago's Airport System, 
        supervised attorneys (including outside counsel) providing 
        regulatory, legislative, contract, finance, real estate and 
        bankruptcy counsel; included dealing with Midway Airlines 
        bankruptcy and negotiating Midway Airport Use and Lease 
        agreement with Southwest Airlines.
Policy and Strategic Planning

        Active in expanding DEPFA First Albany and now Jefferies' 
        Chicago area municipal practice and responsible for strategic 
        development of national airport client base.

        Directed and coordinated CASC strategy regarding airports, 
        Transportation Security Administration (TSA) Congress and 
        media.

        Oversaw design and execution of FAA airport policies and 
        strategies for achieving legislative and regulatory goals and 
        requirements. Examples included FAA Airport Revenue Use Policy 
        and Program Guidance for Letters of Intent (LOIs).

        Directed development and issuance of FAA pilot program 
        guidelines for Congressionally enacted airport privatization 
        program. Conducted individual and public meetings with 
        airports, airlines, and other stakeholders; and public comment 
        period regarding proposed program guidelines.

        Directed design and implementation of innovative FAA pilot 
        grant finance programs, such as allowing pilot airport projects 
        to use certain finance options otherwise unavailable on 
        federally funded projects.

        Partnered with other departments in the development of U.S. 
        Airways' Customer Commitment program addressing Congressional 
        concerns regarding airline/passenger relationships.

        Key member of Chicago's team in the creation and implementation 
        of the Chicago-Gary Regional Airport Authority.
Government and Industry Affairs--Federal, State, Local

        Represented airport and security-related clients with TSA, FAA 
        and Congress.

        Frequently interacted on behalf of FAA with Federal, state and 
        local government officials in both executive and legislative 
        branches. Examples included testifying at Congressional 
        hearings regarding FAA reauthorization and discretionary grant 
        programs.

        Briefed Senators, Congressmen and their staffs regarding FAA 
        programs and issues involving individual airports. Met 
        regularly with airports, airlines, community groups and other 
        stakeholders regarding particular airport developments and 
        issues.

        Representing FAA, frequent speaker at industry conferences.

        Represented U.S. Airways on the Air Transport Association chief 
        legal officer and litigation committees.

        Frequent speaker at airport industry conferences regarding 
        airport finance issues.
Public Finance/Commercial Transactions

        At DEPFA First Albany and now at Jefferies, serve as an 
        investment banker specializing in municipal and airport 
        financing. The firm's clients include a wide variety of public 
        sector entities throughout the country, such as the City of 
        Chicago and Denver International Airport.

        Negotiated airline use and other commercial airport agreements 
        and leases for the City of Chicago. Airline use agreements 
        govern airport/airline relationships, including financing of 
        airport capital improvements, such as cargo facilities, and 
        domestic and international terminals.

        Served as issuer's counsel on more than $1.4 billion of airport 
        revenue bonds, including general airport revenue bonds, and 
        special facility financings.
Regulatory

        Managed FAA national airport program with responsibilities for 
        issuing airport improvement grants, PFC approvals, and national 
        airport systems plan. Directed staff responsible for airport 
        compliance with grant assurances, safety, inspections, and 
        design and technical standards.

        Counseled U.S. Airways on a broad range of Federal regulatory 
        matters, including safety, security, customer service and 
        airport issues.

        Advised Chicago on Federal, state and city regulatory issues 
        concerning aviation, finance, and contracts.
Education
    Boston University School of Law, Juris Doctor, 1976.

    Brandeis University, Bachelor of Arts, 1973.

    Phi Beta Kappa, Magna Cum Laude, Junior Year at University College, 
University of London, London, England
Professional Associations (recent)

    American Bar Association Air and Space Forum, Governing Committee 
(2002-2004).

    Airports Council International--North America

        Associates Representative to ACI-NA Board of Directors (2009).

        Chairman, Associates Board of Directors (2008), Vice-Chairman 
        (2007), Board Member (2005-2008).

        Economic Committee Steering Committee (2005).

    Transportation Research Board, Member--Committee on Aviation 
Economics and Forecasting (2007-2008).

    The Chairman. Thank you very much, Ms. Kurland.
    Mr. Elliott, we look forward to what you have to say.

    STATEMENT OF DANIEL R. ELLIOTT, III, MEMBER-DESIGNATE, 
                  SURFACE TRANSPORTATION BOARD

    Mr. Elliott. Chairman Rockefeller, Ranking Member 
Hutchison, Senator Thune, it is truly a privilege to be here 
before you today as President Obama's nominee to the Surface 
Transportation Board. It is a great honor to be considered for 
such an important position, and I would like to thank Senator 
Brown for his kind words of introduction, even though he is no 
longer here.
    If confirmed, I intend to bring an open-minded, fair, and 
impartial decisionmaker to the Surface Transportation Board. I 
understand, as I heard in the Chairman's remarks, that there 
are contentious issues between the shippers and the railroads, 
and I want to assure the Committee, as I am before you here 
today, that I come here with no preconceived notions of who is 
right and who is wrong. I believe that I will look at the facts 
and law of each case and apply them in a just manner.
    I have worked for the last 16 years handling cases before 
the Surface Transportation Board relating to the United 
Transportation Union, which has helped me understand many of 
the issues that come before the Board, many of its procedures, 
and some of its problems. I have also litigated cases, as 
mentioned earlier, in the Federal courts at the circuit court 
and district court level across this country. I believe, if 
confirmed, that this experience will be a nice complement to 
the present membership of the Board.
    Also, if confirmed, I look forward to working with this 
Committee on the reauthorization of the STB. I intend to be as 
responsive and accessible as possible and will work with you to 
reach a balanced solution to these contentious issues between 
shippers and rail. I will also make myself accessible to the 
board's stakeholders and hopefully all of us together can 
create the best possible rail transportation system for all 
involved.
    Thank you for your consideration, and I would be happy to 
answer any questions at the appropriate time.
    [The prepared statement and biographical information of Mr. 
Elliott follows:]

    Prepared Statement of Daniel R. Elliott, III, Member-Designate, 
                      Surface Transportation Board

    Thank you, Chairman Rockefeller, Ranking Member Hutchison and 
distinguished Members of the Committee for the privilege of appearing 
before you today as a nominee for the Surface Transportation Board.
    Mr. Chairman, I applaud your long-standing interest and efforts in 
making the Board's processes fair to both shippers and railroads. I 
share your belief that the STB should always be impartial, balanced and 
open-minded in carrying out the law.
    I appear today as President Obama's nominee to the Board, a 
decisionally independent agency with significant adjudicative, 
regulatory and policy-making responsibilities. The President, through 
his historic proposed investment in high-speed rail, has acknowledged 
the economic and environmental benefits of rail transportation to our 
Nation. Rail is ``green'' technology that takes vehicles off our 
congested highway system and reduces our dependence on imported oil. 
Moving goods efficiently and cheaply by rail should be an option for as 
many shippers as possible.
    If the Committee and the Senate gives me the honor of serving on 
the Board, I pledge to use my position to bring more harmony to the 
often contentious relationship between shippers, who need to compete in 
an increasingly competitive global marketplace, and railroads, which 
need the necessary revenues to maintain our Nation's vital rail 
infrastructure.
    For 16 years I have litigated cases before the Surface 
Transportation Board representing members of the United Transportation 
Union. This has given me valuable experience in working through issues 
specific to the Federal statutes interpreted by the Board and exposed 
me to shipper, worker and railroad concerns. I believe my litigation 
and other experience would complement that of the current Board 
members.
    I graduated from the University of Michigan with a degree in 
political science and earned my law degree from Ohio State University. 
I have practiced at firms in Washington and in Cleveland before coming 
to the UTU as Associate General Counsel.
    In my extensive dealings with the STB, I have seen up-close the 
dedication and professionalism of Board members and staff, but I have 
also seen areas where the process can be improved. I will look for ways 
to improve the agency's overall level of customer service and 
efficiency, starting with providing parties with a clearer 
understanding of where matters stand and increasing transparency in the 
Board's activities.
    If confirmed, I would focus the Board's resources on bringing 
shippers and railroads together to promote more collaborative, less 
formal, efforts to provide better rail service.
    I would allow more light to shine on the Board's work by improving 
communications and public outreach.
    I also am eager to implement Congress's charge to monitor and 
improve Amtrak's passenger service. And I look forward to working 
closely and cooperatively with Congressional efforts on reauthorization 
of the STB.
    If given the honor of being confirmed, I pledge to be open, fair 
and judicious to all parties who come before the Board. I will bring an 
open mind to the task, partial to neither railroads nor shippers. And I 
will try to live up to the trust put in me by President Obama and the 
members of this Committee by fostering a more open and harmonious 
approach to improving the Nation's rail system.
    Thank you very much for your time and consideration. I look forward 
to answering any questions you might have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Daniel Robert Elliott, III

    2. Position to which nominated: Member of the Surface 
Transportation Board (if confirmed, will be designated Chairman upon 
appointment).
    3. Date of Nomination: July 20, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: United Transportation Union, 14600 Detroit Avenue, 
        Lakewood, OH 44107.

    5. Date and Place of Birth: December 1, 1962; Ann Arbor, MI.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage): None.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Ohio State College of Law, J.D., 1989.

        University of Michigan, B.A., 1985.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Climaco, Climaco, Lefkowitz, Seminatore & Garofoli, Summer 
        Associate, Cleveland, OH; 1987.

        Duvin, Cahn & Barnard, Summer Associate, Cleveland, OH; 1988.

        Bishop, Cook, Purcell & Reynolds (now Winston Strawn), 
        Associate, Washington, D.C.; 1989-1990.

        Marshman, Snyder, Berkley & Kapp, Associate, Cleveland, OH; 
        1990-1991.

        Chester Giltz & Associates, Associate, Cleveland, OH; 1991-
        1992.

        United Transportation Union, Associate General Counsel, 
        Lakewood, OH; 1993-present, one of my responsibilities in this 
        position has been to monitor and handle cases at the Surface 
        Transportation Board.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Cleveland Tenants Organization, Board Member, 1997-present.

        Christian Legal Services, Board Member, 2006.

        DRE RE, LLC, Owner, 2007-present.

        United Transportation Union, Associate General Counsel, 1993-
        present.

        Murray Hill Galleries, Attorney, 2006-2007.

        Fairmount Presbyterian Church, Elder, 2007-present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Cleveland Tenants Organization, Board Member, 1997-present.

        Mayfield Country Club, 2000-2002.

        Fairmount Presbyterian Church, 1995 to present, Deacon, 
        Trustee, Elder (While there are no stated restrictions, it is 
        presumed that one would follow the Presbyterian faith).

        Christian Legal Services, Board Member, 2006.

        American Bar Association, Member, 2008-present.

        American Bar Association Railway and Airline Committee, 2008-
        present.

        Supreme Court of Ohio, 1989-present.

        National Mediation Board Liaison Committee, 2007-2008.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Barack Obama, President, 2008, $2,000. Also, as a volunteer, I 
        helped to raise money in 2008 for the general election 
        campaign.

        Sherrod Brown, U.S. Senate, 2006, $1,250.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        The Railway Labor Act, Senior Editor (BNA 2d ed. 2005 & Supps. 
        2006-2007).

        The Railway Labor Act Cumulative Supplement, Contributing 
        Editor (BNA 1998, 2000 and 2001).

        The Shore Line Status Quo Requirement, Cleveland State Law 
        Review Volume 46 (1998).

        The Railway Labor Act Bargaining Dilemma, Journal of 
        Transportation Law, Logistics and Policy Volume 74 (2007).

        In 2000, I spoke before the Surface Transportation Board Office 
        of Proceedings regarding a labor organization's perspective on 
        bringing cases before the STB.

        For the last 4 years at the American Bar Association Railway 
        and Airline Committee mid-winter meeting, I have spoken on 
        various matters regarding the Railway Labor Act.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have practiced before the Surface Transportation Board in my 
capacity as an attorney for the United Transportation Union for the 
last fifteen years. As a result, I am familiar with many of the issues 
and matters which come before the Board. Also, I have practiced law 
since 1989, which will be helpful in handling matters before the Board. 
I wish to serve in this position to help my country and the new 
administration during these difficult economic times. If confirmed, I 
will bring fair decision-making to the Board and work diligently to 
improve the industries regulated by the Board. I believe my work ethic 
and experience will be a strong asset to the Board in this work.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe I will have responsibility for the proper management and 
operation of the agency. As a result, it will be my responsibility to 
develop and utilize the expert staff to fulfill these duties. I have 
worked for the past fifteen years for the largest rail union in the 
United States as an attorney. In that role, I have learned how to work 
effectively with other staff and accomplish complex tasks.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        The first challenge that faces the agency is to establish 
        better communications between shippers and railroads. A 
        stronger relationship between these parties would help to 
        establish reasonable rates and to attract capital to maintain 
        and improve the rail system.

        The second challenge is to review the size of the Board staff. 
        I believe the agency requires sufficient staff to provide for 
        the expeditious handling and resolution of all proceedings 
        before the Board in order to properly serve the public.

        The third challenge that faces the Board is to ensure that 
        interstate commerce flows smoothly and efficiently during these 
        difficult economic times. Meeting this challenge will help to 
        ensure the development and continuation of a sound rail 
        transportation system in order to meet the needs of the public 
        and national defense.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I presently have a defined benefit pension at the United 
Transportation Union. Upon my appointment to the Board, I will resign 
my position with the UTU and request a lump sum payout of my interest 
in the UTU Supplemental Pension Plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I am the sole owner of the currently inactive DRE RE, LLC, which 
was formed for the purpose of holding my two real estate investment 
properties. It is possible that the LLC may be activated while I am a 
Member of the Surface Transportation Board if confirmed. As I have 
stated in my Ethics Agreement letter to the Board's Designated Agency 
Ethics Official, if the LLC is activated, I will acquire no additional 
investment properties, and I will undertake only those investment 
activities that are needed to manage the assets in a prudent manner 
(such as maintaining the properties and advertising for tenants) and 
required to comply with all legal requirements (such as signing tax 
returns). As a Member of the Surface Transportation Board, I will not 
participate personally and substantially in any particular matter that 
has a direct and predictable effect on the financial interests of DRE 
RE, LLC, unless I first obtain a written waiver pursuant to 18 U.S.C. 
2 08(b)(1).
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the STB's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered with the Board's ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the STB's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered with the Board's ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I appeared before State of Minnesota legislative committees 1 day 
in March of 2005 to speak in support of a rail safety bill on the issue 
of Federal preemption. Also, as Associate General Counsel, I have 
advocated on behalf of the United Transportation Union before the 
Surface Transportation Board, National Mediation Board, Department of 
Labor, National Labor Relations Board and in the Federal courts in 
numerous cases.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the STB's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered with the Board's ethics official and that 
has been provided to this Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    I was arrested once in late 1986 or early 1987 in Columbus, Ohio 
for disorderly conduct and open container in a vehicle (not driving). I 
pled guilty to these two minor misdemeanors and paid a fine.
    I was charged with two separate housing violation actions in 2008 
in Shaker Heights, Ohio, at the rental property I own there. One 
violation involved a bed in the basement which was removed the next 
day. The other violation involved various items, which needed to be 
fixed when I bought the house. I fixed these items. Both cases were 
dismissed after I took these corrective actions.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was involved in two separate eviction cases as a plaintiff in 
2006 in Shaker Heights, Ohio. Neither tenant had paid her rent for two 
to 3 months. Both cases were decided in my favor plus back rent.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: Please see answer to C.2.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    RESUME OF DANIEL R. ELLIOTT, III

    Objective: To become a member of the Surface Transportation Board.
Professional Experience
    Associate General Counsel, United Transportation Union, Cleveland, 
Ohio, October 1993-present.

        Federal Agency matters: experienced in Surface Transportation 
        Board, National Mediation Board, National Labor Relations 
        Board, and Department of Labor Federal grant employee 
        protective arrangement proceedings. Emphasis in handling 
        Surface Transportation Board cases under 49 U.S.C.  10901, 
        10902, 10903 and 11323, including all major mergers from 1993 
        to present. Also, handled Federal appellate cases regarding 
        Surface Transportation Board decisions.

        Labor and employment litigation and counseling on behalf of 
        union and union members.

        Review state legislation on labor and transportation matters 
        for lobbying purposes.

        ``Served as sole counsel on United Transportation Union v. 
        Gateway Western Ry. Co., 284 F.3d 710 (7th Cir. 2002); Ryan v. 
        Union Pacific R. Co., 286 F.3d 456 (7th Cir. 2002); and 
        Adirondack Transit Lines, Inc. V. United Tramp. Union, Local 
        1582, 305 F.3d 82 (2d Cir. 2002).

    Associate, Chester Giltz & Associates, Cleveland, Ohio, 1991-1992.

        Commercial and residential real estate appraisal.

    Associate, Marshman, Snyder, Berkley & Kapp, Cleveland, Ohio, 1990-
1991.

        Research and drafting memoranda and motions for general 
        litigation practice.

    Associate, Bishop, Cook, Purcell & Reynolds, Washington, D.C., 
1989-1990.

        Research and drafting memoranda for general litigation 
        practice.
Education

    Ohio State College of Law, Columbus, Ohio.

        Juris Doctor, May 1989.

    University of Michigan, Ann Arbor, MI.

        Bachelor of Arts, Political Science, May 1985.

    Varsity track letterman 1982-1983.
Professional Publications

        Senior Editor, The Railway Labor Act (BNA 2d ed. 2005 and 
        Supps. 2006-2007).

        Contributing Editor, The Railway Labor Act Cumulative 
        Supplement (BNA 1998, 2000 and 2001).

        The Shore Line Status Quo Requirement, Cleveland State Law 
        Review Volume 46 (1998).

        The Railway Labor Act Bargaining Dilemma, Journal of 
        Transportation Law, Logistics and Policy Volume 74 (2007).
Memberships and Admissions

        Member, Ohio Supreme Court.

        Admitted to practice before Northern District of Ohio, and the 
        Second, Third, Fourth, Sixth, Seventh, Eighth, Ninth and D.C. 
        United States Courts of Appeals.

        National Mediation Board Liaison Committee.

        American Bar Association Rail and Airline Committee.
Other

        Fairmont Presbyterian Church, Elder.

    The Chairman. Thank you, Mr. Elliott.
    Now, Mr. Christopher Hart.

   STATEMENT OF HON. CHRISTOPHER A. HART, MEMBER-DESIGNATE, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Hart. Thank you, Mr. Chairman, Ranking Member 
Hutchison, and Senator Thune of this Committee for the 
opportunity to appear before you today in relation to my 
nomination by President Obama to serve as a member of the 
National Transportation Safety Board. I would like to thank 
Senator Udall for introducing me to this Committee this 
afternoon.
    Being nominated by President Obama for this important 
position, one that has such a tremendous influence on 
transportation safety, is certainly a privilege and an honor.
    Congress, it is wisdom, created the NTSB as an independent 
agency to conduct objective, impartial investigations of 
transportation mishaps in all modes of transportation, 
determine the causes, and make recommendations to avoid 
recurrences, all with a singular focus on improving safety. 
This process has resulted in innumerable safety improvements 
over the years. Indeed, the NTSB has performed its functions so 
well that it is viewed around the world as the gold standard in 
accident investigation.
    Although the NTSB's perspective is obviously different than 
that of the regulatory agencies, by Congress' design, the 
ultimate goals are the same: improving transportation safety. 
In creating this type of relationship between the NTSB and the 
regulatory agencies, Congress developed a structure for 
improving safety that has been admired both by other industries 
in the United States and by governments all over the world.
    Having previously had the honor of serving at the NTSB and 
having also been in transportation safety regulatory agencies 
since 1994, first at the National Highway Traffic Safety 
Administration, and then at the Federal Aviation 
Administration, I have acquired a strong base of knowledge and 
experience upon which to help assure that the relationship 
between the NTSB and the regulatory agencies, while always 
reflecting their inherently different roles and missions, is 
optimal for the purpose of the ultimate goal of improving 
transportation safety.
    Over the last 20 years, there have been many technology and 
process improvements in transportation. As an attorney with a 
master's degree in aerospace engineering, as well as a 3,000-
hour pilot, one of the areas that I hope to explore, if 
confirmed, is how these advances can be more effectively 
employed to help prevent transportation mishaps.
    Before closing, I would like to thank my coworkers and 
other friends who are here today to share this experience with 
me. And I would also like to thank my biggest supporters, my 
wife, LeeAnn; and my daughter, Brooke, who are here today; and 
my son, Adam, who was not able to join us today, for all that 
they have done to help me be in a position to take advantage of 
this opportunity to serve the American people.
    Thank you again for the privilege of appearing before you 
today. If confirmed, I look forward to working with this 
committee on the important transportation safety issues before 
the NTSB. And I would be pleased to answer any questions you 
may have.
    [The prepared statement and biographical information of Mr. 
Hart follows:]

   Prepared Statement by Hon. Christopher A. Hart, Member-Designate, 
                  National Transportation Safety Board

    Thank you, Mr. Chairman, Ranking Member Hutchison, and other 
Members of this Committee for the opportunity to appear before you 
today in relation to my nomination by President Obama to serve as a 
Member of the National Transportation Safety Board. Being nominated by 
President Obama for this important position, one that has such a 
tremendous influence on transportation safety, is certainly a privilege 
and an honor.
    Congress, in its wisdom, created the NTSB as an independent agency 
to conduct objective, impartial investigations of transportation 
mishaps in all modes of transportation, determine the causes, and make 
recommendations to avoid recurrences--all with a singular focus on 
improving safety. This process has resulted in innumerable safety 
improvements over the years. Indeed, the NTSB has performed its 
functions so well that it is viewed around the world as the gold 
standard in accident investigation.
    Although the NTSB's perspective is obviously different than that of 
regulatory agencies, by Congress' design, the ultimate goals are the 
same--improving transportation safety. In creating this type of 
relationship between the NTSB and the regulatory agencies, Congress 
developed a structure for improving safety that has been admired both 
by other industries in the United States and by governments all over 
the world.
    Having previously had the honor of serving at the NTSB, and having 
also been in transportation safety regulatory agencies since 1994--
first at the National Highway Traffic Safety Administration, and then 
at the Federal Aviation Administration--I have acquired a strong base 
of knowledge and experience upon which to help assure that the 
relationship between the NTSB and the regulatory agencies, while always 
reflecting their inherently different roles and missions, is optimal 
for the purpose of the ultimate goal of improving transportation 
safety.
    Over the last 20 years, there have been many technology and process 
improvements in transportation. As an Attorney with a Master's Degree 
in Aerospace Engineering, as well as a 3,000-hour pilot, one of the 
areas that I hope to explore, if confirmed, is how these advances can 
be more effectively employed to help prevent transportation mishaps.
    Before closing, I would like to thank my co-workers and other 
friends who are here today to share this experience with me, and I 
would also like to thank my biggest supporters, my wife, LeeAnn, my 
daughter, Brooke, and my son, Adam, who was not able to join us today, 
for all they have done to help me be in a position to take advantage of 
this opportunity to serve the American people.
    Thank you again for the privilege of appearing before you today. If 
confirmed, I look forward to working with this Committee on the 
important transportation safety issues before the NTSB. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Christopher 
Alvin Hart.
    2. Position to which nominated: 1Member, National Transportation 
Safety Board.
    3. Date of Nomination: June 25, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information is not released to the public.

        Office: Air Traffic Safety Oversight Service Federal Aviation 
        Administration, Room 1026, 800 Independence Avenue, SW, 
        Washington, D.C. 20591.

    5. Date and Place of Birth: June 18, 1947; Denver, Colorado.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: LeeAnn M. Hart, International Aviation Operations 
        Specialist, Federal Aviation Administration, 800 Independence 
        Avenue, SW, Washington, D.C. 20591; Children: Adam C. Hart, Age 
        21; Brooke C. Hart, Age 6.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard Law School, J.D., 1973.

        Princeton University, M.S.E. (Aerospace Engineering), 1971.

        Princeton University, B.S.E. (Aerospace Engineering), 1969.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2005-present--Deputy Director, Air Traffic Safety Oversight 
        Service, Federal Aviation Administration, Washington, D.C.

        1995-2005--Assistant Administrator for System Safety, Federal 
        Aviation Administration, Washington, D.C.

        1994-1995--Deputy Administrator, National Highway Traffic 
        Safety Administration, Washington, D.C.

        1990-1993--Member, National Transportation Safety Board, 
        Washington, D.C.

        1981-1990--Managing Partner, Hart & Chavers, Washington, D.C.

        1979-1981--Associate Attorney, Dickstein, Shapiro & Morin, 
        Washington, D.C.

        1977-1979--Deputy Assistant General Counsel for Environmental, 
        Civil Rights, and General Law, U.S. Department of 
        Transportation, Washington, D.C.

        1976-1977--Attorney, General Counsel's Office, Air Transport 
        Association of America, Washington, D.C.

        1973-1976--Associate Attorney, Peabody, Rivlin, Lambert & 
        Meyers, Washington, D.C.

        1972--Summer Associate, Fish & Neave, New York, NY.

        1971--Summer Associate, Davis, Graham & Stubbs, Denver, CO.

        1969--Summer Engineering Intern, MRI Associates, Los Angeles, 
        CA.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        1998-2008--National Sleep Foundation, Secretary and Director.

        2002-present--Invited by International Association of Fire 
        Chiefs to be on Near-Miss Reporting Task Force to help develop 
        firefighter near-miss reporting system.

        2003-present--Invited by National Academy of Sciences/Institute 
        of Medicine to be safety risk assessment expert on Institute of 
        Medicine Committee on Review of NASA's Bioastronautics Critical 
        Path Roadmap regarding long-duration (Moon and Mars) space 
        travel.

        2008--I filed Articles of Organization in February 2008 to 
        create AvMed Solutions, LLC, a Washington, DC, limited 
        liability company. Plans did not proceed as anticipated, so I 
        filed Articles of Dissolution in September 2008. The company 
        did not conduct any business, did not appoint any officers or 
        directors, and did not open a bank account.

        2009-present--Lowell School, Washington, DC, Trustee (where my 
        6-year old daughter is a student)

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        1969-present--Phi Beta Kappa.

        1969-present--Sigma Xi.

        1969-present--Association of Black Princeton Alumni.

        1971-present--Association of Princeton Graduate Alumni.

        1973-present--Aircraft Owners and Pilots Association.

        1973-present--Lawyer-Pilots Bar Association.

        1973-present--District of Columbia Bar.

        1973-present--Harvard Club of Washington.

        1973-present--Harvard Law School Association.

        1973-present--Princeton Club of Washington.

        1998-2008--National Sleep Foundation, Secretary and Director.

        Late 1990s-present--East (Denver) High School Alumni 
        Association.

        Early 2000s-present--Royal Aeronautical Society, Washington, 
        D.C. Branch.

        2005-present--Georgia Tech Parents Association.

    To the best of my knowledge, none of the above organizations 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        1990--Nominated by the President and confirmed by the Senate to 
        be a Member of the National Transportation Safety Board, 
        Washington, D.C.

        1994--Appointed by the President to be Deputy Administrator of 
        the National Highway Traffic Safety Administration, Washington, 
        D.C.

        No campaigns or campaign debt.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period
    Contributions to Obama for America:

        9/22/2008: $300

        10/17/2008: $250.

    I have not held offices in or rendered services to any political 
party or election committee.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        1969--Graduated magna cum laude, Princeton University.

        1969-present--Phi Beta Kappa.

        1969-present--Sigma Xi.

        1971--Master's Thesis selected to be published as Princeton 
        University Report No. 942.

        1971--Howard Hughes Foundation Scholarship.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Publications

        ``Aviation Industry Provides Roadmap to Improve Patient 
        Safety,'' Biomedical Instrumentation & Technology, Vol. 38, No. 
        6 (Nov/Dec 2004).

        ``Obtaining Investment Capital Through Securities Offerings,'' 
        Spectrum (Journal of the National Association of Black 
        Accountants, Fall, 1984).

        ``State Action Antitrust Immunity for Airport Operators,'' 
        Transportation Law Journal, Vol. 12, No. 1 (1981).

        ``An Antitrust Analysis of Oil Company Ownership of Deepwater 
        Ports,'' Transportation Law Journal, Vol. 10, No. 1 (1978).

    Speeches

    I have given numerous speeches since coming to the FAA in 1995 in 
conferences in several countries in many industries regarding:

  <bullet> Collecting, analyzing, and sharing safety information for 
        proactive use in preventing aviation mishaps.

  <bullet> Application of aviation safety process lessons learned to 
        other industries, including other transportation modes, 
        chemical manufacturing, petroleum refining, nuclear power, 
        healthcare, and the financial industries.

  <bullet> Lessons learned from aviation safety experience regarding 
        improving productivity while improving safety.

    Recently most of my speeches have been by invitation from other 
industries that are looking to aviation for safety lessons learned. To 
the best of my recollection, those speeches in the last few years 
include the following:




July 21, 2009                 Institute of Nuclear Power Operations
                               (INPO), Engineering Human Performance
                               Workshop, Phoenix, AZ.
Mar. 30, 2009                 High Reliability Organization Conference,
                               Berkeley, CA.
Aug. 28, 2008                 Idaho National Labs, Idaho Falls, ID.
Aug. 22, 2008                 DOE Nuclear Executive Leadership Training,
                               Bethesda, MD.
July 23, 2008                 Fluor Corporation Safety Meeting, Atlanta,
                               GA.
June 17, 2008                 Savannah River Safety Conference, Aiken,
                               SC.
Mar. 11, 2008                 Risk Management Assn. Conference, New
                               York, NY.
Feb. 26, 2008                 Savannah River Safety Workshop, Aiken, SC.
Feb. 12, 2008                 Institute for Healthcare Improvement,
                               Boston, MA.
Jan. 13, 2008                 Transportation Research Board, Washington,
                               D.C.
Dec. 12, 2007                 Johns Hopkins Hospital Safety Committee,
                               Baltimore, MD.
Nov. 28, 2007                 Brookhaven National Labs, Brookhaven,
                               Upton, NY.
Aug. 2, 2007                  Lawyer-Pilots Bar Assn, Park City, UT.
July 25, 2007                 High Reliability Organization Conference,
                               Washington, D.C.
May 29, 2007                  High Reliability Organization Conference,
                               Deauville, FR.
Mar. 13, 2007                 Safety Across High Consequence Industries,
                               St. Louis, MO.
Jan. 23, 2007                 Institute for Healthcare Improvement
                               Roundtable, Chicago, IL.
Jan. 11, 2007                 Massachusetts General Hospital Grand
                               Rounds, Boston, MA.
Nov. 10, 2006                 University of Illinois at Chicago Medical
                               School, Chicago, IL.
Oct. 28, 2006                 Assn of American Medical Colleges,
                               Seattle, WA.
April 2, 2006                 High Reliability Organization Conference,
                               Ontario, CA.
Mar. 22, 2006                 St. Lawrence Hospital, Lansing, MI.
Oct. 25, 2005                 Chemical Process Safety Conference,
                               College Station, TX.
Sept. 28, 2005                Intl Helicopter Safety Symposium,
                               Montreal, CA.
June 6, 2005                  Healthcare Safety Conference, Providence,
                               RI.
Various dates:                Intl. Assn. of Fire Chiefs Near Miss
                               Reporting Task Force
                                  Aug. 14, 2008, Denver, CO
                                  Feb. 10-12, 2008, San Diego, CA
                                  Apr. 22-23, 2007, Indianapolis, IN
                                  Apr. 20-21, 2006, Novato, CA
                                  Sept. 14-15, 2006, Dallas, TX
                                  Aug. 11, 2005, Reston, VA



    My speeches have accompanied PowerPoint presentations, as opposed 
to being from text, and I can provide samples of the PowerPoint 
presentations if requested to do so.
    In addition, I gave several speeches, including testimony to 
legislatures in Idaho and South Carolina, as the Deputy and/or Acting 
Administrator of NHTSA, in 1994-1995, and as an NTSB Member, from 1990-
1993, on a variety of topics relating generally to transportation 
safety. I do not have copies or a list of these speeches.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        June 28, 1990, Senate Committee on Commerce; Science, and 
        Transportation. Christopher A. Hart to be a Member of the 
        National Transportation Safety Board.

        April 1, 1992, Government Activities and Transportation 
        Subcommittee of the Committee on Government Operations, House 
        of Representatives. Aviation Safety Issues.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I wish to serve as a Member of the NTSB because I would be honored 
and privileged to have the opportunity, if confirmed, to apply my 
skills and experiences to the benefit of this Administration and the 
American public. With both technical and legal backgrounds, as well as 
being a pilot, I believe I am well-qualified to be a Member of the 
NTSB.
    On the technical side, I have extensive experience developing 
effective and efficient ways to improve safety in complex, tightly-
coupled systems such as transportation systems. This experience has 
been enhanced by my work with other industries, such as chemical 
manufacturing, nuclear power, petroleum refining, the financial 
industries, and healthcare, to help them benefit from very successful 
aviation safety lessons learned.
    My legal background will help me address the many legal issues 
associated with improving transportation safety, as well as the legal 
issues that are routinely addressed by the NTSB in its appellate 
function.
    In addition, I can apply my previous experience at the NTSB and FAA 
to help structure optimal relationships between the NTSB and regulatory 
agencies that will allow them to perform their respective functions 
most effectively.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Proper management and accounting controls are clearly essential to 
an organization of any size, and as highlighted in my answer to 
Question 8, I have acquired management experience in a variety of jobs. 
The largest organization I have managed is the National Highway Traffic 
Safety Administration, which is larger than the NTSB.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the NTSB faces several challenges as a result of the 
rapidly increasing pace of technological development and operational 
enhancement in most transportation industries:

        First, the NTSB must always strive to provide the most 
        effective safety recommendations possible.

        Second, the NTSB must ensure that staff have the time and 
        resources to remain up to date in their training as technology 
        and business processes continue to develop and advance.

        Third, the NTSB has an opportunity to apply more robust systems 
        approaches to help ensure that its recommendations, when 
        implemented, will be beneficial not only to the specific 
        problem being addressed, but also to the overall system in 
        which the problem arises.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have been a Federal employee since 1990, with the exception of a 
few months in 1993-1994 between NTSB and NHTSA, and I have no financial 
arrangements, compensation agreements, or other continuing dealings 
with business associates, clients, or customers. My retirement funds 
are invested in: (a) the Federal Thrift Savings Plan, (b) a Vanguard 
Individual Retirement Account, (c) Vanguard Variable Annuities, and (d) 
Social Security.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Board's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Board's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In the last 10 years I have been extensively involved in developing 
tools and processes to help the aviation community collect, analyze, 
and use data and information proactively to improve safety. As part of 
developing those tools and processes, I have been addressing related 
legal issues about public disclosure, regulatory enforcement, and 
criminal and civil liability.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Board's 
designated agency ethics official and that has been provided to this 
Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In 2008, I sued an employment services firm in DC Superior Court 
for breach of contract (nonperformance), and obtained a default 
judgment against the firm for $12,777 plus interest (Hart v. Byron 
Associates, Civil Action No. 2008 CA 006624B (D.C. Superior Court, 
2008))
    During my tenure as FAA Assistant Administrator for System Safety, 
from 1995 until 2005, three racial and/or age discrimination claims 
were brought regarding selections or other decisions made by managers 
who reported to me, and one racial and age discrimination claim was 
brought regarding a selection that I made. Two of the claims regarding 
the managers were settled at the administrative level (In re Blazy, DOT 
Complaint No. 2-01-2114 (2001); In re Randall, FAA Informal Case No. 
AWA-FY2004-0059 (2004)), and the third was settled while it was in the 
DC Federal District Court (McIntyre v. Mineta, Civil Action No. 05-0664 
(ESH) (D.C.D.C. 2006)). My office prevailed at the Equal Employment 
Opportunity Commission on the merits in the claim regarding the 
selection that I made (McIntyre v. Mineta, EEOC Case No. 100-A2-7049X, 
Washington Field Office, 2003).
    In 2001, in order to enable my son to attend high school in 
Washington, DC, I sought to re-open the custody determination from my 
divorce litigation (described below) that gave my ex-wife custody of 
our son in Florida. The DC Superior Court dismissed my reopening 
efforts, on the grounds that the Florida courts should decide the issue 
(Hart v. Hart, Civil Action No. DR-0897-91d (D.C. Superior Court, 
2001)), so I commenced litigation in Florida (Hart v. Hart, Civil 
Action No. FL-01-00046 (2nd Cir., Leon County, FL, 2001)). My ex-wife 
and I settled the Florida case, with the result that I obtained custody 
and my son attended high school in DC.
    Sometime in the mid-1990s, I commenced litigation in DC Superior 
Court against the condominium association in which I am an owner to 
repair damages that resulted from repair work that was done by the 
condominium. We settled the case.
    In 1991, I sued my wife for divorce in the DC Superior Court. I 
obtained the divorce but was not awarded custody of our son (Hart v. 
Hart, Civil Action No. DR-0897-91d (D.C. Superior Court, 1992), aff d, 
Civil No. DR-897-91 (D.C.Ct.App. 1996)). During this process, our house 
went into foreclosure, and I commenced a separate action in DC Superior 
Court to delay the foreclosure. The foreclosure sale was deferred, and 
I purchased the house in the foreclosure sale.
    The law firm of which I was a founder was sued for rent by its 
landlord in DC Superior Court in the late 1980s. The lawsuit was 
settled while it was under appeal (Hart v. Vermont Investment Limited 
Partnership, No. 94-CV-426 (D.C.Ct.App. 1995)).
    I own three investment properties, and those have resulted in three 
or four lawsuits in DC Superior (Small Claims) Court between my tenants 
and me over the years regarding amounts claimed to be owed. The most 
recent one for which I could find any records occurred in 1997. All 
such suits were settled.
    In the mid 1970s, a partnership in which I was a partner sued a 
lessee of a partnership airplane for nonperformance in the local courts 
of Virginia. The lessee prevailed in that lawsuit.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    Please see my answer in Question 3, above, regarding a 
discrimination claim that was filed at the EEOC, and decided on the 
merits in my favor.
    In 2000, while I was FAA Assistant Administrator for System Safety, 
a confidential complaint was filed with the FAA's Accountability Board, 
alleging that I allowed a contractor for a division of my office to 
hire only petite females. The complaint was investigated by the FAA's 
normal process for such complaints (which uses investigators who are 
not from the FAA) and found to be without merit (FAA File No. AB 99-
0176 (2000)).
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     RESUME OF CHRISTOPHER A. HART

Employment
    2005-present--Deputy Director, Air Traffic Safety Oversight 
Service, Federal Aviation Administration, Washington, D.C., 202-267-
5205.

        Oversee safety of the FAA air traffic organization.

    1995-2005--Assistant Administrator for System Safety, Federal 
Aviation Administration, Washington, D.C.

        Reporting directly to the FAA Administrator, the Office of 
        System Safety provided data, analytical tools and processes, 
        safety risk assessments, and other assistance to support FAA 
        and worldwide aviation community safety programs; spearheaded 
        industry-wide safety activities such as the Global Aviation 
        Information Network (GAIN); and helped identify safety issues 
        and emerging safety trends.

    1994-1995--Deputy Administrator, National Highway Traffic Safety 
Administration (appointed by the President), Washington, D.C.

        NHTSA regulates the safety of motor vehicles and helps states 
        with safety belt, drinking and driving, child safety seat, and 
        other programs.

    1990-1993--Member, National Transportation Safety Board (nominated 
by the President and confirmed by the Senate), Washington, D.C.

        The NTSB investigates and determines the probable cause of 
        transportation accidents, issues reports and recommendations to 
        improve safety, and decides appeals in enforcement proceedings 
        against airmen and seamen.

    1981-1990--Managing Partner, Hart & Chavers, general civil practice 
law firm, Washington, D.C.

    1979-1981--Associate Attorney, Dickstein, Shapiro & Morin, general 
civil practice law firm, Washington, D.C.

    1977 to 1979--Deputy Assistant General Counsel for Environmental, 
Civil Rights, and General Law, U.S. Department of Transportation, 
Washington, D.C.

    1976-1977--Attorney, General Counsel's Office, Air Transport 
Association of America, Washington, D.C.

    1973-1976--Associate Attorney, Peabody, Rivlin, Lambert & Meyers, 
general civil practice law firm, Washington, D.C.
Education
    J.D., Harvard Law School, 1973.

    M.S.E. and B.S.E., aerospace and mechanical sciences, Princeton 
University, 1971 and 1969, respectively.
Publications

        ``Aviation Industry Provides Roadmap to Improve Patient 
        Safety,'' Biomedical Instrumentation & Technology, Vol. 38, No. 
        6 (Nov/Dec 2004).

        ``Obtaining Investment Capital Through Securities Offerings,'' 
        Spectrum (Journal of the National Association of Black 
        Accountants, Fall, 1984).

        ``State Action Antitrust Immunity for Airport Operators,'' 
        Transportation Law Journal, Vol. 12, No. 1 (1981).

        ``An Antitrust Analysis of Oil Company Ownership of Deepwater 
        Ports,'' Transportation Law Journal, Vol. 10, No. 1 (1978).
Honors

        Invited by National Academy of Sciences to be safety risk 
        assessment expert on Institute of Medicine Committee on Review 
        of NASA's Bioastronautics Critical Path Roadmap re long-
        duration (Mars) space travel, 2003-.

        Invited by International Association of Fire Chiefs to be on 
        Near-Miss Reporting Task Force to help develop firefighter 
        near-miss reporting system, 2002-.

        Director, National Sleep Foundation, 1998-2008.

        Member, District of Columbia Bar Board of Professional 
        Responsibility, 1993-1995.

        Board of Governors, District of Columbia Bar, 1983-1989.

        Member, Legal Ethics Committee of District of Columbia Bar, 
        1983-1989.

        Board of Directors of WPFW-FM station, 1983-1990.

        Governing Council, Princeton Club of Washington, 19831989.

        Admitted to District of Columbia Bar, 1973.

        Graduated magna cum laude, Princeton University, June 1969.
Other
    Commercial/Multi-Engine/Instrument pilot, more than 2900 hours.

    The Chairman. Thank you, Mr. Hart.
    Ms. Cahill?

                STATEMENT OF PATRICIA D. CAHILL,

             MEMBER-DESIGNATE, BOARD OF DIRECTORS,

              CORPORATION FOR PUBLIC BROADCASTING

    Ms. Cahill. Chairman Rockefeller, Senator Hutchison, and 
Members of the Commerce Committee, thank you for the 
opportunity to appear before you to discuss my nomination to 
the Board of Directors of the Corporation for Public 
Broadcasting. I also want to thank President Obama for 
nominating me and Senator McCaskill for her strong support for 
me during this process.
    As a public radio station manager, when I am behind a 
microphone, it is not usually to testify before the Senate. 
Instead, I am thanking listeners and encouraging them to 
support public radio. My first words on the radio were in 1965 
at the student-operated station at the University of Kansas 
when I said, ``What's this red light doing on?''
    [Laughter.]
    Ms. Cahill. I started working full time in public radio 
during graduate school as a receptionist at an educational 
station. National Public Radio would not be created for 2 more 
years. I continued my early career as a public radio producer-
reporter, news director, and program director.
    I became General Manager of a public radio station in 1976 
and I am currently General Manager of KCUR in Kansas City and 
Assistant Professor in Communication Studies at the University 
of Missouri-Kansas City. During my tenure, KCUR's listening 
audience has quadrupled and listener contributions have 
increased dramatically, as have the hours and the depth of 
programming we provide to our community.
    I have been elected twice to the Board of Directors of 
National Public Radio, which produces and distributes 
programming to hundreds of public radio stations across the 
country. On the NPR Board, I served as Chairman of the 
Technology Distribution Committee, overseeing the satellite 
interconnection system, which matches the quality of our 
signals to the quality of our programming. I also served as 
Chairman of the Membership Committee, ensuring service to 
member stations and expanding NPR membership to more stations. 
And I served as the first Chairman of the Development 
Committee, overseeing NPR's corporate and foundation support.
    I was elected three times as President of Public Radio in 
Mid America, which represents the unique needs of our region to 
the public radio system.
    Now, I am on the air only during membership drives. 
Contributions from our community provide 88 percent of our 
funding. This level of support demonstrates the value of our 
programming to our community.
    But the Federal contribution to public broadcasting is also 
essential. At my station, CPB funds make up approximately 9 
percent of our budget. In addition to these funds, which go 
toward my station's programming expenses, Federal funding from 
CPB has helped my station and many others with purchasing and 
installing digital equipment and with periodic upgrades to the 
public radio interconnection system.
    I have a life-long commitment and passion for public radio 
and its service to local communities, and I believe my 40 years 
of work in the industry will make me an asset on the CPB Board 
as it sets the policies governing the distribution of Federal 
funds to the system. Public radio can provide information and 
education that can help people change their lives and the lives 
of people around them. Our product is the content we provide: 
over the air, over cable, on the web, on the phone, on multiple 
platforms. The purpose of commercial broadcasting is to connect 
advertisers with their audiences. The purpose of public 
broadcasting is to connect people with one another and to the 
wider world. Public broadcasting expands the horizons of 
Americans, demonstrating how we are different and how we are 
the same.
    I believe all my experiences, my education, my teaching, 
and my work in public radio on the local and national levels 
have led me here today. If confirmed to the Board of Directors 
of the Corporation for Public Broadcasting, I will work 
tirelessly on behalf of the American people to advance the 
mission of public broadcasting.
    Thank you again for your consideration, and I would be 
happy to answer any questions you have.
    [The prepared statement and biographical information of Ms. 
Cahill follows:]

      Prepared Statement of Patricia D. Cahill, Member-Designate, 
        Board of Directors, Corporation for Public Broadcasting

    Chairman Rockefeller, Senator Hutchison and Members of the Commerce 
Committee, thank you for the opportunity to appear before you to 
discuss my nomination to the Board of Directors of the Corporation for 
Public Broadcasting. I also want to thank President Obama for 
nominating me and Senator McCaskill for her strong support for me 
during this process.
    As a public radio station manager, when I am behind a microphone 
it's not usually to testify before the Senate. Instead, I am thanking 
listeners and encouraging them to support public radio. My first words 
on the radio were in 1965 at the student-operated station at the 
University of Kansas when I said, ``What's this red light doing on?''
    I started working full time in public radio during graduate school 
as a receptionist at an educational station. National Public Radio 
would not be created for two more years. I continued my early career as 
a Public Radio Producer-Reporter, News Director and Program Director.
    I became General Manager of a public radio station in 1976 and I am 
currently General Manager of KCUR Radio in Kansas City and Assistant 
Professor in Communication Studies at the University of Missouri-Kansas 
City. During my tenure, KCUR's listening audience has quadrupled and 
listener contributions have increased dramatically, as have the hours 
and the depth of programming we provide to our community.
    I have been elected twice to the Board of Directors of National 
Public Radio, which produces and distributes programming to hundreds of 
public radio stations across the country. On the NPR Board, I served as 
Chairman of the Technology/Distribution Committee, overseeing the 
satellite interconnection system, which matched the quality of our 
signals to the quality of our programming. I also served as Chairman of 
the Membership Committee, ensuring service to member stations and 
expanding NPR membership to more stations, and as the first Chairman of 
the Development Committee, overseeing NPR's corporate and foundation 
support.
    I was elected three times as President of Public Radio in Mid 
America, which represents the unique needs of our region in the public 
radio system.
    Now I am on the air only during membership drives. Contributions 
from our community provide 88 percent of our funding. This level of 
support demonstrates the value of our programming to our community.
    But the federal contribution to public broadcasting is also 
essential. CPB funds, provided by Congress, are the lifeblood of the 
system, and are the irreplaceable foundation for everything that local 
stations do. At my station, CPB funds make up approximately 9 percent 
of our budget. In addition to these funds, which go toward my station's 
programming expenses, Federal funding from CPB has helped my station 
and many others with purchasing and installing digital equipment and 
with periodic upgrades to the public radio interconnection system.
    I have a life-long commitment to and passion for public radio and 
its service to local communities, and I believe my 40 years of work in 
the industry will make me an asset on the CPB Board of Directors as it 
sets the policies governing the distribution of Federal funding to the 
system. Public radio and television can provide information and 
education that can help people change their lives and the lives of 
people around them. Our product is the content we provide: over the 
air, over cable, on the web, on the phone, on multiple platforms. The 
purpose of commercial broadcasting is to connect advertisers with their 
audiences. The purpose of public broadcasting is to connect people with 
one other and to the wider world. Public broadcasting expands the 
horizons of Americans, demonstrating how we are different and how we 
are the same.
    I believe that all my experiences, my education, my teaching, and 
my work in public radio at the local and national levels, have led me 
here today. If confirmed to the CPB Board of Directors, I will work 
tirelessly on behalf of the American people to advance the mission of 
public broadcasting.
    Thank you again for your consideration. I would be happy to answer 
any questions you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Patricia Deal Cahill.
        Nickname: Patty.

    2. Position to which nominated: Corporation for Public 
Broadcasting, Board of Directors.
    3. Date of Nomination: July 6, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: KCUR Radio, University of Missouri-Kansas City, 4825 
        Troost Ave., Suite 202, Kansas City, MO 64110.

    5. Date and Place of Birth: October 9, 1947; St. Louis, Missouri.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Lindsay Cahill Crump, 29; Jessica Cahill Ford, 26.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Master of Arts, University of Kansas, 1971.

        Bachelor of Arts, University of Kansas, 1969.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        General Manager of KCUR Radio and Assistant Professor of 
        Communication Studies, University of Missouri-Kansas City, 
        1987-Present.

        General Manager of KMUW Radio and Instructor in Journalism and 
        Communications, Wichita State University, 1976-1987.

        Program Director of KMUW, 1976-1976.

        News Director of KMUW, 1975-1976.

        Reporter/Producer at KCUR Radio and Instructor in Communication 
        Studies, University of Missouri-Kansas City, 1973-1975.

        Public Relations Speaker, Project Concern's Walk for Mankind, 
        1972.

        Director of Audio-Reader, KANU University of Kansas, 1971-1972.

        Record and Tape Librarian, KANU Radio, University of Kansas, 
        1970.

        Receptionist, KANU Radio, University of Kansas, 1969.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Grant Reviewer, U.S. Department of Commerce, Public 
        Telecommunications Facilities Program.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        KCUR General Manager and Assistant Professor, University of 
        Missouri-Kansas City, 1987-present.

        Secretary of the Board of Directors, Women's 12-Step Recovery 
        Center, Inc (Friendship House and Catherine's Place) 2008-
        present.

        Jackson County Court Appointed Special Advocate (CASA), 2007-
        2008.

        Authorized representative (``A-Rep'') from KCUR Radio to 
        National Public Radio, 1987-present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Unity Temple on the Plaza Church, 1996-present, member.

        Public Radio in Mid America, 1987-present, former President and 
        Vice President and member, Board of Directors.

        Women's 12-Step Recovery Center, Inc., Secretary of Board of 
        Directors, 2008-present.

        Authorized representative (``A-Rep'') from KCUR Radio to 
        National Public Radio, 1987-present.

    I am also a regular donor to organizations which consider their 
donors ``members,'' including: The Nelson-Atkins Museum of Art, KKFI-
FM, Community Radio, KCUR Radio, KCUR Watts Society (endowment), and 
the American Association of Retired People.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: Not applicable.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: Not applicable.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Wichita Chapter, Women in Communications, Inc., Outstanding 
        Woman, 1987.

        Alpha Epsilon Rho, Outstanding Faculty Member, 1979.

        Alumini Citation Honor, Radio-Television, University of Kansas, 
        1992-1993.

        Patricia Deal Cahill Appreciation Day, Wichita, Kansas, 1987.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Master's Thesis: Joe McCarthy and Television.
    I write a short letter to KCUR's listeners and supporters in our 
annual Year in Review.
    I have given hundreds of speeches concerning public radio to 
educational, social and service organizations from 1969 to the present, 
including the following:
    From 1987 to the present, I have spoken on a reoccurring basis at 
the University of Missouri-Kansas City to graduate social work classes, 
alumni, public relations classes, management classes, new faculty and 
new student orientations, and KCUR Radio underwriters and major 
contributors. During this time I have also spoken to classes at Avila 
College, Rockhurst University, Park College, Webster University, Center 
High School, Center Middle School, and Stuckey Middle School.
    From 1975 to 1987, I spoke on a reoccurring basis at Wichita State 
University to journalism classes, broadcasting classes, the student 
government association, alumni, the Women in Communication student 
group, a luncheon for the New Radio Building, student orientations, and 
the accreditation committee. I also spoke at an assembly at Friends 
University in 1980.
    I have also spoken to a variety of groups. For example, in 1978, I 
spoke to the Carnegie Commission on the Future of Public Broadcasting. 
From 1983 to 1988, I spoke at National Public Radio Conferences and in 
2006 I spoke at its New Realities meeting. From 1976 to 1987, I spoke 
on a few occasions to the Wichita and Hutchinson chapters of Women in 
Communications; I spoke to the Kansas City chapter once in the early 
1990s. I have spoken a handful of times to chapters of the Public 
Relations Society (Witchita from 1976 to 1987 and Kansas City from 1987 
to the present). Sometime between 1976 and 1987, I spoke once to the 
National Association of Women in Construction. In the late 1980s, I 
spoke to the Sertoma Club in Johnson County. In 1987, I spoke at the 
Village Presbyterian Church in Kansas City. Finally, since 1970, I have 
spoken on occasion to Kiwanis and Rotary Clubs in Lawrence, Kansas, 
Wichita, and Kansas City, as well as to Sheppard's Center and other 
senior groups and nursing homes.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My education and 40 years of experience working in public radio, 33 
of them managing public radio stations and teaching broadcasting 
courses, qualifies me for a position on the Board of Directors of the 
Corporation for Public Broadcasting. My experience on the Board of 
Directors of National Public Radio has also helped me understand the 
significance and importance of this organization as well as the 
responsibilities and duties of a Board of Directors. My experience at 
the local level helps in understanding the significance and value of 
Board policies and planning for public radio and television stations.
    I want to serve in this position because my passion for public 
radio and all my experiences in public radio have led me here.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As a former member of the Board of Directors of National Public 
Radio, I have experience in working with a large organization. I have 
taken a graduate level accounting course, taught financial management 
to my broadcast management course and prepared all the financial 
paperwork for the radio station's outside auditors for a couple of 
years. I currently oversee all income and expenses of the public radio 
station. As a manager, I understand the importance of proper management 
and accounting controls. Without them, there is no viable organization.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why.

        Responding to the changing social and economic structure of the 
        country, which provides new ways for public radio to reach a 
        broader audience.

        Finding new ways of financing programming on a variety of 
        different platforms to build financial capacity for the 
        industry.

        Expanding the audience for public broadcasting, thereby 
        providing a valuable service to people who are now unserved.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Under the University of Missouri's defined benefit retirement 
program, upon retirement I will receive benefits in the amount of 2.2 
percent of my final average salary, multiplied by the number of years 
of service. Under this program, I expect to receive a retirement income 
from the University of Missouri in the amount of about $47,000 a year.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I expect to remain General Manager of KCUR Radio and Assistant 
Professor of Communication Studies at the University of Missouri-Kansas 
City.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I manage a public radio station that receives yearly Community 
Service Grants from the Corporation for Public Broadcasting. In 
connection with the nomination process, I have consulted with the 
Office of Government Ethics and the CPB's ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered with the CPB's ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPB's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered with the CPB's ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I went to Jefferson City, MO and met with state legislators 
regarding state funding for public radio about 8 or 9 years ago.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPB's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered with the CPB's ethics official and that 
has been provided to this Committee.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: Not applicable.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    In 1996, I was found in violation of a Kansas City municipal 
ordinance when a pet defecated in a neighbor's yard. I was ultimately 
given 6 months probation.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was one of the defendants in Robert Barrientos v. The Curators of 
the University of Missouri, Radio Station KCUR, Patricia Cahill and 
James Costin, Case No. 16CV95-15377, which was filed in the Circuit 
Court of Jackson County, Missouri on July 26, 1995. After I asked him 
to resign, Mr. Barrientos alleged violations of state and Federal laws 
prohibiting discrimination on the basis of sex and national origin, and 
a breach of an employment contract that provided he would be paid a 
commission on certain sales. On June 24, 1996, the case was dismissed 
with prejudice after the parties reached a settlement. Under the terms 
of the settlement, the defendants expressly denied liability, but the 
University of Missouri agreed to pay plaintiff $10,000 in exchange for 
a stipulated dismissal with prejudice.
    I have also been involved in three divorce proceedings, one in 1974 
(from Michael Allen Spencer); one in 1985 (from Stephen Crump); and one 
in 1997 (from Claus Peter Wawrzinek).
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: Please see my answer to #2 above.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: Please see my answer to #3 
above.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     RESUME OF PATRICIA DEAL CAHILL

Experience
    1987-Present, University of Missouri-Kansas City, General Manager, 
KCUR Radio, Assistant Professor, Communication Studies.

        Listening audience tripled to over 190,000 weekly.

        From $150,000 deficit to over $3,000,000 fund balance.

    1976-1987, The Wichita State University, General Manager, KMUW 
Radio; Instructor, Speech Communications and Journalism.

        Increased power from 10,000 to 100,000 watts stereo.

        Moved from farm house to remodeled store building.

    1969-1976, Program Director, KMUW Radio; News Director, KMUW Radio; 
Reporter/Producer, KCUR Radio; First Director, Audio-Reader, Radio 
Service for the Blind; Record and Tape Librarian, KANU, University of 
Kansas; Receptionist, KANU.
Education
    M.A. Radio, Television, Film University of Kansas.

    B.A. Speech and Drama & Geography, University of Kansas
Selected Service and Honors
    National Public Radio Board of Directors, 1982-1988

        Executive Committee

        Chair, Development Committee.

        Chair, Distribution/Interconnection Committee.

        Chair, Membership Committee.

    Public Radio in Mid America.

        President, 1978-1980, 1989-1993.

    Committee/Review work includes:

        Department of Commerce, Public Telecommunications Facility 
        Program.

        National Public Radio.

        Corporation for Public Broadcasting.

        Kansas Arts Association.

        Missouri Arts Council.

        Wichita State University.

        University of Missouri-Kansas City.

    Women in Communications, Inc.

        Outstanding Wichita Woman

    City of Wichita, Kansas

        Patricia Deal Cahill Appreciation Day.

    University of Kansas.

        Alumni Honor Citation, Radio-Television.

    Alpha Epsilon Rho.

        Outstanding Faculty Member

    Women's 12-Step Recovery Center, Inc.

        Secretary, Board of Directors.

    Court Appointed Special Advocate, Jackson County, MO.

    The Chairman. Thank you. Your statement that the purpose of 
commercial radio is to connect advertisers with people I am 
sure would bear some discussion, but no argument from me.
    Mr. Elliott, let me start. You said an interesting thing. 
You said I do not come into this with a sense of who is right 
or who is wrong or maybe it is what is right or what is wrong. 
I am not sure what it was. But it surprised me because it seems 
to me, number one, that is not usually the legal approach. In 
other words, there is a feeling of who is right and who is 
wrong. I think what you were trying to do was to bypass--
incidentally, after I ask you this question, I am going to ask 
each of you to introduce your family members, but they may not 
want to get up. I do not know.
    [Laughter.]
    The Chairman. The question about captive shippers and 
railroads is--I mean, there are points that are right. There 
are points that are wrong. There are annual reports that talk 
about railroads making profits of such and such. There are 
questions that Senator Hutchison certainly knows about and 
captive shippers throughout the land about being blackmailed, 
being held up, being threatened, being cutoff, having their 
prices raised because there was only one rail going into that 
particular farm or steel mill or coal mine or whatever it is.
    As we all know, the Staggers Act said if there are two 
rails, then let the free market set the price, but if it is one 
rail, the STB sets the price. That has been roundly ignored by 
the railroads and inadequately addressed by captive shippers. I 
think that represents two wrongs, clear wrongs. The captive 
shippers do not have the money or they fear they are going to 
lose or they are going to get drawn out because they are not 
big.
    So I am just interested that you do come to this with, I 
assume, some points of view.
    Mr. Elliott. In response, thank you for the question, 
Chairman.
    I do, obviously, have a grasp of legally speaking--that is 
one side of the coin of what is right and what is wrong, I 
guess, based on the statute and precedent which I will do my 
best to look at and apply appropriately.
    With respect to what is right and what is wrong with 
respect to the shippers, what I think I intended there was that 
I come from neither one side or the other side and that my 
viewpoint would not be slanted one way or another coming in. I 
know from some of my meetings before the hearing that there 
were some concerns about the board, and I just wanted to make 
sure that I was viewed coming from a neutral background.
    The Chairman. Well, maybe we better have people introduce 
their families, and I will come back on that. It concerns me 
what you say. Would that be all right? So who would like to 
introduce? We are going to start with public broadcasting.
    Ms. Cahill. I would like to introduce my youngest daughter, 
Jessica Ford, who is my comfort during this time.
    Mr. Hart. Thank you, Mr. Chairman. I would like to 
introduce my boss with a little B, LeeAnn Hart, who is my wife, 
and my boss with a big B, Brooke Hart, who is my 6-and-three-
fourths-year-old daughter.
    [Laughter.]
    Mr. Hart. She is enthralled with this, as you can see.
    The Chairman. Mr. Elliott?
    Mr. Elliott. I would like to introduce my father, my best 
friend from college, and my mother and her husband, my step-
father.
    The Chairman. OK, good.
    Ms. Kurland. And Mr. Chairman, I would like to introduce my 
brother, Jacob; my sister, Judy; my sister-in-law, Audrey; my 
niece, Rebecca; and my nephew, Marshall Kurland. Thank you.
    The Chairman. Good, all right.
    Mr. Bertram?
    Mr. Bertram. Mr. Chairman, I will introduce my wife, Katie, 
my son, Paul, who is a page in the Senate this summer; and my 
daughter, Ann; as well as my wife's aunt, Marie; and uncle, 
Roger.
    The Chairman. Good, all right.
    My time has expired, and I will continue our conversation 
and have other questions. I turn now to the Ranking Member, 
Senator Hutchison.
    Senator Hutchison. Thank you. I want to start by asking 
each of you to just give me a ``yes'' or ``no'' answer. We on 
the Committee, both sides of the aisle, rely on technical 
advice and help from all the agencies that we oversee. I want 
to ask if you and your staff will be open to working with us as 
we fulfill our oversight responsibilities with the information 
that you have in your agencies. Mr. Bertram?
    Mr. Bertram. Yes.
    Ms. Kurland. Yes.
    Mr. Elliott. Yes.
    Mr. Hart. Yes.
    Ms. Cahill. Definitely.
    Senator Hutchison. Thank you very much.
    I want to start with Ms. Kurland. Antitrust immunity has 
been in the purview of the Department of Transportation when 
alliances are proposed between U.S. and foreign carriers. That 
has been a very important role that the Department of 
Transportation has played because, as I am sure you know, many 
mergers have been avoided by having agreements for code-sharing 
and alliances with international carriers.
    My question is, sometimes the Department of Justice has 
weighed in with different views, but I believe that the 
Department of Transportation understands that competition in 
the aviation area depends on having alliances that will avoid 
mergers that will then equate to higher costs to consumers.
    My question to you is, will you support the policies of the 
past where the Department of Transportation is the premier 
antitrust determiner in these types of cases?
    Ms. Kurland. Thank you, Senator Hutchison.
    I understand that the Department of Transportation views 
that the statutory responsibility that they have to administer 
and process applications for antitrust immunity has been very 
useful in enhancing strong benefits to consumers in global 
transportation. I do understand that there have been 
differences of opinion with the Department of Justice. And if I 
am confirmed, I will follow the statutory requirements 
carefully, work with the Department of Transportation, work 
with this Committee, and talk with the Department of Justice.
    Senator Hutchison. Does that mean that you believe that it 
is the proper role for the Department of Transportation to make 
these determinations in that particular area when it is between 
U.S. and foreign air carriers?
    Ms. Kurland. I do believe that the statutory 
responsibilities that have been granted to the Department of 
Transportation--I agree with those responsibilities, and I will 
carry them out to the best of my abilities, yes.
    Senator Hutchison. That is a yes then to the question.
    I will just say that the Department recently determined 
that the Continental alliance would be approved even though the 
Department of Justice had concerns, and I think it was the 
right decision that Secretary LaHood made. But there are others 
still pending, and I would hope that you would follow through 
with the chairman's philosophy that the more airlines we can 
keep whole and competitive, the better off consumers are in our 
aviation field.
    I would like to turn to Mr. Elliott. I think that the 
Chairman was concerned, and I would like to follow-up somewhat 
on his question, and that is, what would be your guiding 
philosophy in this very important area between railroads and 
shippers?
    We all want rails to be able to have the capital 
infrastructure and to be safe and also profitable. We also want 
shippers to be able to have affordable options when they are 
captive and also a forum that is as simple as possible for 
small shippers to be able to come to the STB. So how would you 
handle your responsibility, if you are the Chairman of STB, to 
deal with the balance that is so necessary in those issues?
    Mr. Elliott. Thank you for the question, Ranking Member 
Hutchison.
    I guess the key word that you used is ``balance.'' I think 
the statutory--with respect, the statute is set up in such a 
way to balance those concerns between adequate revenue for the 
railroads and the shippers having reasonable rates. So there is 
a balancing act. Obviously, these two groups need one another. 
The railroads obviously need their customers and the shippers 
obviously, especially the shippers who only have the railroads 
as their only means of transportation, need the railroads to 
transport that. So there has to be a balancing act between 
those two groups.
    I have heard a lot of concerns regarding this issue and I 
certainly would make it, if confirmed, one of my--my number one 
priority to look into those issues.
    Senator Hutchison. Thank you. My time is up. Are you sure?
    The Chairman. Yes.
    Senator Hutchison. Mr. Bertram, there is a growing interest 
in our country in high-speed rail, and as you know, the 
stimulus package put $8 billion into trying to foster more 
areas to be able to have high-speed rail. The Administration is 
going to be looking at another billion on top of the $8 
billion. But that is not going to build any rail line. That is 
not enough.
    So my question is, this is seed money, but how would you 
look for ways, and do you have ideas about ways, that high-
speed rail could be financed so that we can augment that part 
of our multimodal transportation in this country which really 
needs to have a more equal rail involvement if we are going to 
have real choices for transportation modes?
    Mr. Bertram. Sure, Senator. As you know, any large 
infrastructure project, especially transportation 
infrastructure project, rarely relies on just one source of 
funding. There are Federal sources. There are State sources. 
States can borrow money. I think one of the models to maybe 
look at is the State of California that actually issued a very 
large bond issue to start their high-speed rail project. So I 
really think they are going to have to look at--just like major 
highway projects and major transit projects, State and local 
governments, working with the Federal Government, are going to 
have to look at pulling together sources of funds from 
different programs not just one large Federal program.
    Senator Hutchison. Would you ever look at Federal bonds 
that might be payable from future revenue?
    Mr. Bertram. Sure. I think one of the ideas that the 
Administration is working on is the concept of a national 
infrastructure bank, which would make funds available where 
states could borrow money from that bank and then repay that 
with future revenue sources either through taxes or through the 
actual receipts of running the system.
    Senator Hutchison. Thank you, Mr. Chairman. I have a few 
others, but I really would like for you to take your turn and I 
will just maybe have a couple of others.
    The Chairman. All right.
    Mr. Elliott, getting back to you, I understand the concept 
of neutrality and it is quite possible that the Obama 
Administration told you to appear to be strictly neutral. You 
know, be neutral. And that is fair enough. But the problem is 
that when you get to the problem of captive shippers, nothing 
is neutral. So if you are confirmed, as I expect that you will 
be--hope that you will be, you have to be fair, but there is a 
difference between being fair and being neutral.
    What is that difference?
    Mr. Elliott. I think I understand what you are saying now. 
I think, obviously, as a decisionmaker at the Board, I have to 
be neutral and apply the law as it is.
    The Chairman. But if I could interrupt you.
    Mr. Elliott. Sure.
    The Chairman. If there is anything that stands out in the 
history of captive shippers--that is why it has been an issue 
for so long--the 1984 Staggers Act has not been applied fairly. 
It has been applied to the advantage of the railroads, to the 
disadvantage of the shippers who often cannot bring suit 
because they do not have the money or it will take them too 
much time and they get worn down by the bigger railroads.
    When I came here 24 years ago, there were 50 class A 
railroads. Today there are 4. Maybe it is 5. Who knows? But 
they have got the power. And the law says that if there is only 
one line into a source of loading, that you set the rates, so 
to speak. And that is not a neutral act. Well, it has been very 
unneutral 24 years. That is, I guess, the way I want to put it.
    And I want you to be reasoned and fair and all the rest of 
that, but I do not want you to be somehow disengaged from this 
whole thing. You have been head of a union. Unions generally 
are not disengaged. So describe to me your temperament as you 
face what has been really kind of a war of the roses.
    Mr. Elliott. My temperament is to be very engaged with this 
committee, with the stakeholders, and to stay involved as much 
as possible. I, obviously, have heard the concerns with respect 
to the captive shippers, and their concerns are loud and clear.
    Obviously, the Staggers Act was set up during a time where 
the railroads were suffering, and it was to help them get back 
on their feet. Obviously, the railroads have gotten back on 
their feet. And there was also a concern about competition with 
respect to the shippers, and I take that aspect of the act very 
seriously and I intend to take a very careful look at it and be 
proactive.
    The Chairman. OK.
    Susan Kurland, I was very happy about the fiscal 2010 
budget because of a parochial yet nationwide reason, and that 
is the Essential Air Service. There is nothing more 
frustrating--and I am sure it is true in Texas, in some of the 
rural parts of Texas where there are--you know, it is not 
Dallas or Fort Worth, but there are people that are trying to 
carry on business that need to connect into the international 
marketplace. And so you have a lot of airports where there is 
just simply no air service, but there can be air service if 
there is some small degree of subsidy and, subsequent to that, 
if there is the robust, as they say, usage of that flight so 
that it is full, so that it can be justified.
    How do you see the importance of the Essential Air Service?
    Ms. Kurland. Well, I think, Mr. Chairman, it is a very 
important program, and I know that it is one that is very 
important to the Administration. In fact, you mentioned the 
2010 budget. The Administration in their budget increased the 
amount that they were budgeting for. I think it is expected to 
be at $175 million.
    The Chairman. An enormous increase.
    Ms. Kurland. Yes. I think, though, the program has faced 
some of the same stresses and pressures that we have seen in 
the larger aviation program in that we have a world-wide 
recession, we have seen demand go down, we have seen more cuts 
in capacity, we have seen prices go up, and we have also seen, 
with respect to a number of the carriers that provide essential 
air service, a number of them have left the markets. So the 
program has faced some pressure.
    My goal or my objective, should I be confirmed, is to work 
closely with you, with your staff, with the members of the 
Committee. I think it is a very important program and I will 
work with you on this program.
    The Chairman. That is good.
    [Laughter.]
    The Chairman. No. For those of you who do not come from 
rural States, the Essential Air Service is the difference 
between being connected to the world or not, being able to do 
business in Europe or not because you can get a connection. And 
Senator Hutchison knows that as well as I do.
    So beyond increasing the spending, what has to happen with 
the Essential Air Service to make it work? I mentioned that 
there is a big responsibility on the part of airports to market 
themselves. People think that airports are just sort of like a 
highway on top of a mountain or something like that. They are 
not. They are commodities. They are like a Baby Ruth candy bar. 
They are commodities to be marketed so people will go buy them.
    And we had that experience in West Virginia where people 
were driving all the way to Cincinnati so they could get the 
lower fares of Southwest Airlines, not taking into account the 
overnight expenses of staying in a motel, the gas, and all the 
rest of it. So this particular airport, Charleston, went about 
marketing itself as an airport, as a commodity, as a Baby Ruth 
candy bar. That is not the most elegant solution, but I like 
that brand, so I use it. But it is a commodity and you cannot 
expect people to just sort of wander up there and say, I want 
to go to Albuquerque. You have to fight for their loyalty, and 
that means marketing yourself through television, through the 
business community, through every single possible mechanism.
    What are some of your ideas about promoting these airports? 
Or add on to what I have to say or just say that what I said 
was ample and you would prefer to go on to something else.
    Ms. Kurland. Well, I do believe that what you have said was 
very eloquent, but I do think that one of the points that you 
raised could be amplified on and that is the business 
community. I think that communities really need to get their 
local business community, their Rotary Clubs, the folks to buy 
into it, to view it as a resource for the community and that it 
is important for them to stand behind it so that they have it 
and they can bring the prices down. So I think working with the 
business community is also key.
    The Chairman. We have had in West Virginia examples in the 
45 years that I have been there of, for example, sort of fairly 
contiguous parts of the State and their airports looking upon 
each other as enemies. Who is going to get a bigger share? And 
as a result, they sort of hunker down and prepare for the best 
or the worst or whatever life deals them.
    I do not buy that philosophy. It seems to me that if you 
are fairly contiguous to other airports that you work as a unit 
and that you sell yourself as a region. That is very hard in 
rural states that have a tradition of county direction and 
county loyalty. I mean, Huntington and Charleston and 
Parkersburg just would not speak to each other, but they all 
need each other. They all need each other desperately. Now, 
none of them are using Essential Air Service, but they have got 
people from Parkersburg wanting to come to Charleston to catch 
a flight because they do not have that flight at Parkersburg, 
or vice versa.
    I mean, it is a major state obligation or state's people 
obligation or a business community or a travelers' obligation 
to be aggressive about using airports regardless of where they 
might be, you know, being reasonable about that, and not wait 
till somebody decides or does not decide to come to your 
particular airport.
    Ms. Kurland. I agree with you, and should I be confirmed, 
these are conversations I would love to have further with you 
and talk about other ideas.
    The Chairman. OK. I think my time is out, but I will run 
over with one question. That is also on antitrust immunity.
    It is important to me that the DOT maintain its authority 
in evaluating applications for antitrust immunity in order to 
balance the competing need of competition, the health of the 
industry, and consumer interests. Do you expect DOT to maintain 
its authority in this area?
    Ms. Kurland. It is my understanding that the authority is 
with DOT, and I think that DOT has viewed it as a very useful 
tool in enhancing competition, in providing benefits to our 
consumers. And should I be confirmed, I look forward to 
participating and being a part of the antitrust immunity 
application process and review process.
    The Chairman. Thank you very much.
    Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    Let me ask you, Mr. Hart, what do you think are the most 
critical issues that have not been addressed by agencies that 
have received recommendations from the NTSB?
    Mr. Hart. Thank you, Senator Hutchison. That is a question 
I have certainly been looking at during my many years in 
transportation safety.
    I think one of the most generic issues that I am seeing 
across the modes is fatigue, because all these businesses are 
24/7 businesses. The science that underlies fatigue is not well 
understood, which is one of the reasons it is so difficult to 
come to an objective conclusion on the best way to do it.
    In addition to that, in aviation we have the complication 
that we can cross many time zones in a short period of time. So 
in addition to the fatigue that mariners, truckers, and 
railroaders experience, aviation has the additional 
complication of sometimes crossing multiple time zones in a 
short period of time.
    So I think that the issue that most concerns us is fatigue, 
to all of the modes generically is fatigue.
    Senator Hutchison. Thank you.
    Now, Ms. Cahill, I think all of us support the Corporation 
for Public Broadcasting and the difference of the type of 
programming that they have had in the past that was not being 
done by the mainstream television networks.
    I want to ask you, though, now that there are so many other 
outlets with cable and so many different types of programming, 
if the Corporation for Public Broadcasting or especially public 
television is doing enough in in-depth programming which has 
been one of the things it could do that mainstream media could 
not because maybe it would not be as profitable or have as 
quick of a return. Do you think that public television is doing 
enough in-depth programming, or would you look for ways to make 
any changes?
    Ms. Cahill. Senator Hutchison, as a public radio manager, I 
appreciate the amount of in-depth news and information 
programming that we are able to provide to the community, and I 
think that public television could do that as well. We need 
more of that.
    Senator Hutchison. I think your point is well taken, that 
really radio does do that, but are you saying you think there 
could be more investment in in-depth programming than is being 
done today?
    Ms. Cahill. Certainly a lot more investment.
    Senator Hutchison. And last but not least, do you think 
that the programming on NPR, as well as public television, is 
fair and balanced as it relates to different views and 
philosophies, and is that something that you will watch 
carefully as a member of the Corporation for Public 
Broadcasting?
    Ms. Cahill. Senator Hutchison, I understand that the 
Corporation for Public Broadcasting is responsible for balanced 
and objective programming, and I will make every effort to make 
sure that radio and television continue to do that.
    Senator Hutchison. Thank you.
    I think, Mr. Chairman, I have a few other questions that I 
can certainly submit for the record, but that would be all that 
I would need for today.
    The Chairman. That is it? All right.
    Ms. Cahill, let me try another aspect of this. Senator 
Hutchison was a little aghast when I talked about the 3 percent 
viewership, and I am a little aghast when I think about only 3 
percent of Americans, when they go down to buy a CD in music, 
buy classical music. I find that perplexing or, in other days, 
I would call it horrifying. But life is what life is.
    It strikes me--and I am sure that Senator Hutchison shares 
this. I mean, being fair and balanced is tremendously 
important, but frankly, getting news out there--the public 
increasingly--I have spent the last either 6 weeks or 60 
years--I am not sure which it is. It has gone by so quickly--
working on the health care reform bill. We had that very 
interesting statistic and, of course, commercial and public 
television were carrying the President's remarks. When he gave 
remarks on an evening news conference, which was only his 
fourth, the viewership went down to 2 million people, which was 
terrifying to me that people want to be entertained. But if you 
are in a democracy, people have to be informed. Some people do 
not want to be informed because they think they have the right 
idea, and if somebody comes with another point of view, they 
say, well, that person is a liberal or a conservative or 
irresponsible or hyperactive or whatever it is.
    The point is making sure that the public gets news to help 
make good public policy. That is what we try to do here. I 
recognize that Congress is not doing very well in the public 
polls and it never has and it never will. But what we do is 
important. What State legislatures do is important. And it is 
only public television that gives them a fair shake. They do 
not usually have the resources to do it, but they are 
determined to do it and they do it.
    I have sort of come to the feeling that if I want to get 
information about what is going on in this country or in this 
world, I have got two places to go. I can go to public 
television or radio, or I can go to newspapers.
    I mean, I was really thrilled yesterday when I did two long 
interviews on an intricate aspect of health care reform with 
two fairly rural newspapers in West Virginia. Now, that 
interview may be put in the third section of the paper, but I 
frankly do not care. There were reporters on the other end who 
were interested in what I had to say and wanted to get it right 
and saw that there was some connection with what I was talking 
about with the problems that they themselves or their families 
or the neighbors are dealing with.
    And we have lost that because it is what Michael Jackson 
did for all of us. I guess I have no idea. You know, it is 
scandal. It is corruption. It is who is in trouble, nannygate, 
and all the rest of it. We have become less deep as a society, 
even as our needs have deepened in their seriousness, and that, 
therefore, it is asking a lot.
    I think it is just basically Washington, New York, and 
Boston which are the main production stations. Am I right about 
that?
    Ms. Cahill. I believe so for television.
    The Chairman. But you do not have to be a production 
station to do extraordinary coverage. I think that you all do, 
and I think commercial television, for the most part, does not. 
That is another discussion for another day.
    But I just want to encourage you, not ask you a question, 
but to encourage you in your work that you are doing what this 
country needs more than ever.
    Ms. Cahill. Thank you.
    The Chairman. And it is easy to get angry about a war or to 
be happy about a war or to be neutral about a war, but it is 
very hard to get embroiled in public policy that involves 
health care reform or that involves transportation or things of 
this sort which are just flat-out basic to the American people 
but they do not want to hear about it.
    So part of the trick is that it is hard for you because you 
have got to raise the money and foundations are not giving 
money like they used to. But that will change and you have just 
got to stick with it. And you will have money that you can 
allocate to stations, and I hope that you will do that--well, 
you will do that. I am confident of it. I care very much about 
the medium, and I am just very grateful to people who write the 
news and occasionally grateful to people who report the news 
visibly.
    Ms. Cahill. Thank you.
    Senator Hutchison. I do want to ask one more question and 
it would be for Mr. Elliott.
    The General Accounting Office reported that the STB 
commissioned a comprehensive study of competition in the 
freight rail industry, and the final report was released in 
2008, commonly referred to as the Christiansen Report. It has 
recently come to the Committee's attention that the Board 
determined that some of the data the Board supplied to the 
authors of the study was flawed and that in some cases the data 
overstated railroad rates.
    What would be your plans, as leader of the Board, for 
revising the study to take into account or correct the record 
on the data, and should the Board take any action relying on 
the report that you would be cognizant of and get the most 
accurate data before you did any action based on it?
    Mr. Elliott. Obviously, that occurred previously, and I did 
hear something about it and I had read the executive summary of 
the Christiansen Report.
    If confirmed, my understanding is that the numbers are 
being looked at again and there is a process going on to make 
them correct. That is my understanding. Obviously, if 
confirmed, I would encourage that process to make those numbers 
correct. Obviously, you do not want to rely on a flawed report.
    Senator Hutchison. Thank you, Mr. Chairman.
    The Chairman. In my final question, I would just take the 
personal liberty of saying that I hope that you will charge 
right into the middle of that hornets' nest and really go after 
it, really deal with it because it is not going to settle 
itself. You will do that.
    Mr. Elliott. I will.
    The Chairman. Thank you.
    Are there any other questions? I see no other members other 
than the two of us.
    So I thank you all again. This business about public 
service is to me emotional, particularly when you have to give 
up what you have to give up to come do it. I am not saying that 
Kay Bailey and I do not have to give up certain things, but we 
choose it. We choose it and we like it. It is harder for you, 
all of you. And I really respect----
    Senator Hutchison. There is, however, a difference between 
your vow of poverty and mine, with all due respect, Mr. 
Chairman.
    [Laughter.]
    The Chairman. And on that note, the hearing is adjourned.
    [Whereupon, at 3:49 p.m., the hearing was adjourned.]

                            A P P E N D I X

Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Christopher Bertram

    Question 1. Senator Rockefeller and I have introduced a national 
surface transportation policy bill that would create more performance-
based, data-driven surface transportation programs. How could our 
surface transportation programs be improved by using more performance-
based measures?
    Answer. A key challenge for those who craft the Nation's 
transportation programs will be to link decision-making to performance 
at all levels. This will require a new commitment to measure 
performance, as called for in the legislation that you have sponsored. 
Performance-based measurement is key to ensuring that new 
transportation funding is invested wisely, and that the public has 
enough confidence in our work to support continued investment. Some 
other possible benefits of performance-based decision-making include 
improved safety, increased energy efficiency, environmental 
sustainability, greater accessibility, and more livable communities. 
Going forward, the balance of funding among the surface transportation 
modes will be fundamental to the best investment of our Federal 
transportation resources.

    Question 2. The eight billion dollars for high-speed rail in the 
Recovery Act, along with President Obama's budget request of one 
billion dollars annually over the next 5 years, are strong first steps 
in developing a comprehensive high-speed rail network. But the demands 
to build a national network will exceed these resources. What can the 
Department of Transportation do to get the greatest return possible on 
these high-speed rail investments?
    Answer. President Obama has directed that program decisions under 
the Recovery Act, including the development and implementation of the 
new high-speed rail program be based upon merit. From my review of the 
high-speed rail strategic plan and interim guidance to applicants and 
my discussion with executives of the Department, I am confident that 
the Department's approach to implementing that program aligns well with 
the President's directive and will result in a significant return to 
the public. While on the staff of the Senate Commerce Committee, I 
participated in the drafting of the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA) which will be the foundation of the 
high-speed and intercity passenger rail funding for the programs that 
will begin with funding under the Recovery Act. Sections 301 and 501 of 
that Act lay out a number of specific considerations to be used by the 
Secretary in awarding grants but they have the common theme of 
selecting projects that are both feasible and result in significant 
benefits in passenger mobility and the public at large. The Recovery 
Act and the Department's implementation of that Act are building on the 
PRIIA requirements in a number of ways to direct investments to 
projects and programs that accomplish the Administration's strategic 
transportation goals: Ensure safe and efficient transportation choices; 
build a foundation for economic competitiveness; promote energy 
efficiency and environmental quality; and support interconnected, 
livable communities. The Department's strategy is also to establish 
processes and procedures to address the need to minimize and mitigate 
risk so that the project is implemented as planned and generates the 
benefits intended. But processes are only part of the equation. There 
must also be vigilant oversight of the implementation of these 
processes. I see that as an important responsibility of mine and, 
should I be confirmed, look forward to taking on that challenge.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Susan Kurland

    Question 1. Ms. Kurland, the Essential Air Service program 
currently ensures that there is commercial air service for five small 
communities in my state. While I agree that the program could probably 
be more efficient, could you tell me more about what changes, if any, 
DOT proposes for Essential Air Service?
    Answer. As you are aware, this Administration has proposed a 
substantial increase in funding for EAS for FY 2010 to $175 million. It 
is my understanding that that funding level will allow the DOT to run 
the program for the upcoming Fiscal Year. In his FY 2010 budget 
submission, President Obama committed to working with Congress on 
developing a more sustainable program model and I know the importance 
of EAS to the state of New Mexico given you have Alamogordo, Carlsbad, 
Clovis, and Silver City participating in the program (Hobbs was taken 
off subsidy on May 31, 2009). Should I be confirmed, I look forward to 
working with all stakeholders to achieve the President's goal.

    Question 2. What steps would you take to provide a better 
foundation for the Essential Air Service program and otherwise ensure 
that small communities depending on it--especially in the current 
economic climate--continue to benefit from airline transportation?
    Answer. I understand the Obama Administration is committed to 
maintaining small communities' access to the national air 
transportation system, and the primary tool to ensure that is the 
Essential Air Service (EAS) program. Most agree, including the GAO 
which recently released a report on EAS, that the program is not 
designed as efficiently as it can be, and should I be confirmed, I will 
work with you, members of this Committee, and others to better 
implement the program while still delivering the services to the 
eligible communities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                             Susan Kurland

    Question 1. Ms. Kurland, I apologize for missing you when you were 
in my office last week, but I did want to raise an issue that is of 
importance to me and I hope will be of importance to you in your new 
job if you are confirmed. As you know on May 8th of this year 23 
Senators, nearly one quarter of the Senate, sent a letter to 
Secretaries LaHood and Clinton regarding the negotiations of an Open 
Skies agreement with Japan and access to Haneda Airport in Tokyo. This 
access will allow for a very limited amount of international service, 
tied to an artificial Intra-Asia perimeter, or for service outside the 
perimeter during late night hours.
    I, and the colleagues of mine that signed this letter, wanted to be 
able to have input with DOT and State prior to the July negotiations. 
That is why we sent our letter in May and asked them to respond.
    Our letter simply stated that U.S. policy calls for an open skies 
agreement, and we urge DOT to insist on strong assurances from Japan 
that it will not artificially restrict any U.S. carrier access to or 
use of major international gateways in Japan like Haneda in a manner 
inconsistent with longstanding open skies policy. Over two and a half 
months have passed, and we have had no response from DOT at all.
    As you know if Haneda is further internationalized to serve the 
U.S., airlines like Delta (that use Narita airport in Tokyo as a hub) 
that have made a major investment in Narita will be competitively 
disadvantaged. These airlines were required to do this in the 1970s.
    I understand that, according to your meeting with my staff, you 
haven't reviewed the case, but humor me if you will. You were formerly 
counsel at U.S. Airways, so I know you have a better understand then 
most of airline economics and business decisions. Given the facts as I 
have presented them to you, what do you think about this?
    Answer. While not involved in the airline's international business 
efforts, I did have an opportunity to experience many of the issues 
that affect the airline industry. As you note, I have not yet had the 
opportunity to familiarize myself with the case. If confirmed, I assure 
you that I will work with the Department, Congress, and all 
stakeholders to develop an agreement that will fairly address these 
concerns.

    Question 1a. Can you give me any estimate as to when we might 
receive a response from DOT as to our May 8th letter? State wrote us 
back 6 weeks ago.
    Answer. I do not have an estimate on a response to your letter. 
However, if I am confirmed, I would be happy to look into the matter. 
More generally, I can assure you that, if I am confirmed, I will work 
with staff at the Department to ensure that Congressional inquiries are 
answered in a timely fashion.

    Question 1b. As you know, as part of the check and balance system 
of government. Congress, through title 49 section 40101 of the U.S. 
Code, set the negotiating criteria for DOT and State. The section 
starts by saying:
    In formulating United States international air transportation 
policy, the Secretaries of State and Transportation shall develop a 
negotiating policy emphasizing the greatest degree of competition 
compatible with a well-functioning international air transportation 
system, including the following . . .
    . . . and then goes on to mention the numerous criteria put in 
place by Congress. What philosophy do you have about keeping Congress 
informed and responding to Congressional inquiries?
    Answer. I feel very strongly about keeping Congress informed. If I 
am confirmed, I intend to work closely with Congress and keep Congress 
well informed of our negotiations.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Daniel Elliott

    Question 1. Mr. Elliott, over the past 25 years the Class I 
railroads have reduced their investment in rail cars. Currently, it is 
estimated that about 60 percent of rail cars are [owned] by shippers 
and leasing companies. It is my understanding that railroads may be 
encouraging shippers to own or lease rail cars in exchange for reduced 
rail rates--which may cause this trend to accelerate. As you know, the 
railroads' interchange rules are established by the Association of 
American Railroads (AAR) and these rules essentially establish the 
costs of car operation and maintenance for third parties.
    Given the shift in ownership in rail cars from the railroads to 
third parties over the past several years, to what extent do you 
believe the STB should review the AAR process for amending its 
interchange rules and entertain complaints about the process from car 
owners, lessors, or their designated agents? Should the STB look at 
balancing the interests of car owners and car users? And if you believe 
the STB should look at balancing these interests, do you believe the 
Board has all the statutory authority it requires to achieve this?
    Answer. Rail freight cannot move without rail cars, so issues 
related to the supply of rail cars and rules governing their use are of 
critical importance to the entire railroad industry. I am generally 
aware of these issues but I have not been directly involved because of 
the nature of my responsibilities in my current job. If confirmed, I 
will approach these issues with an open mind and will seek to find a 
fair and workable balance between all of the stakeholders--shippers, 
railroads, car owners, lessors and lessees. I am generally aware that 
the STB has broad authority over equipment issues. If I become aware of 
any area in which more authority is needed, I would not hesitate to 
bring that to the attention of the Congress.

    Question 2. Mr. Elliott, for decades the Interstate Commerce 
Commission (ICC) prescribed car hire rates, establishing the price paid 
to the owner of cars by the user railroad. As you know, in the 1990s, 
the ICC de-prescribed car hire rates, effectively shifting the 
responsibility to the AAR. Under current law, ``The rate of 
compensation to be paid for each type of freight car shall be 
determined by the expense of owning and maintaining that type of 
freight car, including a fair return on its cost giving consideration 
to current costs of capital, repairs, materials, parts, and labor. In 
determining the rate of compensation the (Surface Transportation) Board 
shall consider the transportation use of each type of freight car, and 
other factors that affect the adequacy of the national freight car 
supply.''
    Do you believe that railroads have implemented the de-prescription 
methodology in a manner consistent with the statute (49 U.S.C. 
11122(b)) described above? Does the STB currently have the authority to 
remedy any market distortion or complaints with respect to car hire 
rates or would a clearer directive from Congress be helpful?
    Answer. The compensation that is paid to a rail car's owner for use 
of the car is an important motivator for stakeholders to invest in the 
national rail car fleet. This area of car compensation and car hire is 
not one with which I have been directly involved, but I am generally 
aware of the issues. If confirmed, I will get a better understanding of 
these issues promptly. My goal will be to ask ``what's working?'' and 
``what's not?'' If I conclude that there are aspects of the current 
approach to car compensation that are not working effectively, I would 
not hesitate to explore avenues for change. Any change would need to 
reflect a fair balance between car owners and car users. I understand 
that the STB has broad authority in this area.
    If I become aware at any point that additional authority would be 
desirable, I would not hesitate to bring that to the attention of the 
Congress.

    Question 3. Mr. Elliott, my understanding is that the STB has a 
duty under the National Environmental Policy Act (NEP A) ``to ensure 
adequate consideration of environmental factors in the STB's decision-
making process. Under NEPA, the STB must take into account in its 
decision-making the environmental impacts of its actions, including 
direct, indirect and cumulative impacts. The STB must consider these 
impacts before making its final decision in a case.'' Do you believe 
STB can deny a merger or acquisition application based on the severity 
of environmental impacts to surrounding communities? Based on what you 
know today, are you satisfied with the process the STB has in place to 
assess the environmental impacts of rail mergers?
    Answer. I share your understanding that the STB has a duty under 
NEPA to ensure adequate consideration of environmental factors in its 
decisionmaking process. This duty obligates the agency to consider the 
direct and indirect environmental impacts of its action before making 
its final decision in many types of cases.
    It is my understanding that the Board has authority to require 
parties to agree to conditions that will mitigate environmental 
impacts, and has used that power in recent mergers and acquisitions. To 
my knowledge, however, neither the Board nor any Federal court has 
provided guidance on the circumstances when the STB can deny an 
application based on the severity of environmental impacts. If 
confirmed, I will review the Board's authority and, if congressional 
clarification is needed, I will work with Congress to resolve this 
important issue.
    Based on what I know today, the STB has a process in place that is 
designed to provide interested communities or parties with an 
opportunity to offer views on the environmental impact of a proposed 
merger. This entails having hearings in or near the affected 
communities to offer members of the public a chance to discuss their 
concerns face-to-face with the environmental staff of the STB. If 
confirmed, I will address concerns that stakeholders have over this 
process and explore ways to improve the existing environmental 
procedures of the agency.

    Question 4. Mr. Elliott, my understanding is that one of the ways 
that the STB has historically handled mitigating community impacts is 
to urge railroads and communities to negotiate an agreement that then 
becomes part of the official decision. Quite often this approach 
disadvantages impacted communities that lack the experience, knowledge 
and/or resources to understand what they can or should expect from the 
railroads. What type of policy or STB operational changes could be made 
to overcome any disadvantage communities may have? Could the STB 
provide technical assistance to communities that request it? Overall, 
do you have a sense where the STB should strike the balance between 
efficient rail operations and community impact concerns?
    Answer. It is my understanding that the STB attempts to mitigate 
community impacts by conducting an analysis of the potential impacts 
and possible mitigation measures, and then imposes mitigation 
conditions designed to minimize those impacts. This entails meeting 
with local communities to hear their concerns, as well as other Federal 
and state agencies and local officials. It is also my understanding 
that the STB does encourage local communities to negotiate with the 
railroads to reach an agreement that would impose mitigation conditions 
beyond the scope of those the agency can impose itself. During this 
process, I have been informed that local communities often ask STB 
staff about the kinds of negotiated agreements other communities have 
reached in similar circumstances, and STB staff will make available to 
them typical agreements filed at the agency that provide general 
information about the kinds of mitigation provisions agreed to. Should 
I be confirmed, I would listen carefully to any concerns that a 
community is being treated unfairly or otherwise disadvantaged by the 
agency's environmental review process and seek to address those 
concerns.
    It is my sense that the STB must attempt to strike a reasonable 
balance between efficient rail operations and community impact 
concerns. This entails finding a harmonious balance between the public 
benefits of a strong national rail network and protecting the health 
and safety of local communities affected by the transaction. If 
confirmed, I will do my best to balance these competing concerns in a 
fair manner.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                             Daniel Elliott

    Question. My 2008 Clean Railroads law stops unscrupulous solid 
waste operators from avoiding environmental protection laws by loading 
their trash along railways. How will you enforce this law to end the 
evasion of our environmental protection laws?
    Answer. If confirmed, it will be my responsibility to enforce laws 
passed by Congress in a manner fully consistent with congressional 
intent. I am aware of the problems created by trash companies seeking 
to hide behind the preemption provisions of the Interstate Commerce Act 
to circumvent state and local environmental protection laws. If 
confirmed, I will review the details of the 2008 Clean Railroads law 
and make every effort to actively enforce the law as was intended by 
Congress and protect the public from any misconduct or abuses of the 
preemption protections provided to legitimate railroad activities.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                             Daniel Elliott

    Question. Mr. Elliott, some estimate that intercity freight traffic 
will grow by 70 percent by the year 2025. Given the energy efficiency 
and environmental advantages of rail freight transportation, how do you 
see the Surface Transportation Board's role in supporting the railroad 
industry's growth in the years to come?
    Answer. I am aware that many analysts predict that freight traffic 
on the railroads will increase in the future. The railroad's ability to 
meet this demand in an efficient and environmentally friendly way is 
critical to our Nation's economy. To meet increasing demand for their 
services, railroads must generate revenues to be able to invest in 
expanding their capacity and maintaining their infrastructure. Under 
current law, the STB must take into account the railroad's revenue 
needs in considering the reasonableness of rail rates. But no railroad 
can lawfully charge an unreasonably high rate on captive traffic. The 
STB must therefore carefully balance the revenue needs of the railroads 
to continue to meet demand with the requirement that their rates be 
reasonable. If confirmed, I intend to make sure that the STB strikes 
this balance.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                             Daniel Elliott

    Question 1. Based on a recommendation from General Accounting 
Office in a report requested by this Committee, the STB commissioned a 
comprehensive study of competition in the freight railroad industry. 
The final report was released in 2008 and is commonly referred to as 
the ``Christensen Report.'' It has recently come to the Committee's 
attention that the Board has determined that some of the data the Board 
supplied to the authors of the study was flawed and that the data 
overstated railroads rates. This is very likely to have resulted in 
flawed findings.
    On July 30, 2009, the Board announced that it had contracted with 
Christensen Associates to update its report based on 2007 and 2008 
data. The Board announcement, however, was silent on the issue of the 
flawed data in the original study. I am concerned that adding new data 
from two additional years while simultaneously correcting the original 
errors will obscure the extent of the problems with the original 
report. Can you assure the Committee that the Board will correct the 
original report in a manner that allows users of the report to clearly 
see how the analysis conclusions of the original report were faulty?
    Answer. If confirmed, I assure you that the Board will provide a 
transparent final report that details how any conclusions in the 
original report are affected by the revised data.

    Question 2. What, if any, action has the Board taken, or will the 
Board take, to ensure that anyone relying on the report is made aware 
of the flawed findings?
    Answer. I am aware that the Board issued a press release and placed 
a notice on its website to alert interested parties that the report is 
being updated. If confirmed, I will commit to taking any additional 
steps needed to ensure that no party is relying on a flawed report.

    Question 3. The Board's announcement stated that the ``update will 
cost the Board''--in other words, the taxpayers--$125,000. How much did 
the original study cost? Would the Board be spending all this money if 
the original data it provided to Christensen had been accurate? After 
all, the study was just released last November. Do you plan to have 
continuous report updates, and if so, do you expect they will occur so 
soon after a report is issued--in this case, a mere 8 months?
    Answer. It is my understanding that the original study cost $1 
million. I do not know how much of the $125,000 cost of the updated 
study is attributable to the flawed data. If confirmed, I would review 
whether any further updates would be necessary.

    Question 4. The announcement indicates that, ``the update will also 
make some technical corrections to the report.'' What, specifically, 
are the technical changes and why are they needed? Do these technical 
changes in anyway impact the findings of the November report? If so, 
how?
    Answer. I do not know what the technical changes are that were 
referred to in the press statement, nor can I predict the impact on the 
findings of the November report. However, if confirmed, I will ensure 
that the updated report will provide sufficient information so the 
public can clearly see how the findings of the November report changed.

    Question 5. When, exactly, did the Board learn that some of the 
data it had provided to Christensen was flawed? What action has the 
Board taken regarding this matter since that time and the July 30 
announcement?
    Answer. I do not know when the Board learned that some of the data 
it had provided to Christensen was flawed, or what actions were taken 
before the July 30 announcement.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Daniel Elliott

    Question 1. What do you consider to be the most important 
management needs at the Board, and how do you hope to address those 
needs as Chairman?
    Answer. I consider one of the most important management objectives 
for the Chairman to be to assure the prompt resolution of disputes 
brought to the agency. It has been my experience, having represented 
the UTU in many matters before the agency, that at times the process is 
very slow and the final decision comes so late that resolution of the 
dispute may no longer be relevant. I believe active supervision of 
staff, as well as clear communication of the goals, needs and 
objectives of the Board, will facilitate prompt resolution of disputes 
brought to the agency. If confirmed, I intend to clearly communicate my 
objectives to staff and to take active steps to remove any internal 
obstacles to the prompt resolution of matters brought to the agency.

    Question 2. What are your views regarding the role arbitration can 
or should play in resolving conflicts between shippers and railroads?
    Answer. If confirmed, working to resolve conflicts between shippers 
and railroads will be a priority for me. In my experience, arbitration 
can be a successful tool in facilitating the resolution of disputes. 
While arbitration may not be suitable for all kinds of disputes, I 
believe arbitration or mediation can play a role in resolving disputes 
between shippers and railroads.

    Question 3. What are your views on proposals to impose strict 
antitrust law to all matters currently under the auspices of the STB? 
How would the role of the STB be impacted?
    Answer. I am aware of recent legislation to remove antitrust 
immunities afforded the railroad industry. In general, I believe the 
antitrust laws are important to the proper functioning of competitive 
markets, so that any exceptions from those laws should be periodically 
reviewed and justified. However, my experience has not focused on rail 
antitrust issues, so I am unfamiliar with the full scope of antitrust 
immunities provided the railroads. As such, I cannot offer my views on 
specific legislative proposals at this time. If confirmed, I will 
carefully analyze the antitrust immunities in question and the 
potential impact of the proposed legislation and, if requested, provide 
my views to Congress.

    Question 4. Do you believe Agriculture shippers have adequate 
recourse available through the Board's current policies, guidelines, 
and regulations?
    Answer. It is important that all shippers have adequate recourse to 
the agency to have their disputes heard and resolved in a fair and 
prompt fashion. It has been my experience that at times the process can 
take far too long, and that these delays may discourage shippers, 
including agricultural shippers, from enforcing their rights under 
Federal law. If confirmed, it is my intent to listen carefully to 
concerns that the Board's processes are inadequate and take all 
reasonable measures to ensure that all shippers have adequate and 
prompt recourse to the Board.

    Question 5. What, if anything, would you recommend to ensure the 
Board's processes for bringing rate complaints or concerns about 
service are assessable to small shippers?
    Answer. As an attorney, I am aware of the high cost of litigating 
disputes, whether before the STB, other Federal agencies, or the court 
system. When litigation costs are high, small shippers with genuine 
disputes may be unable to feasibly bring the matter to the agency's 
attention. In my experience, agency delay breeds litigation costs and 
discourages small shippers with disputes from bringing those matters to 
the STB. If confirmed, I will make it a priority to improve small-
shipper access to the Board.

    Question 6. In regard to freight rail transportation, what in your 
judgment is the more serious problem: inadequate rail capacity or 
inadequate rail competition? What are your views on how both issues 
affect the economic well-being of railroads and shippers?
    Answer. Asked to select which of these situations is the more 
serious problem is to be caught between two important competing 
interests. Both are problems, as inadequate rail capacity and 
inadequate rail competition are both likely to translate into higher 
transportation rates and poor service. The Board must carefully 
navigate a course between these two very important competing 
considerations.

    Question 7. Do you understand and have an appreciation for the 
important role that short line railroads play in the national railroad 
network and will you support the continued creation of those railroads?
    Answer. I do understand the important role that short line 
railroads play in the national railroad network. More than 25 percent 
of all rail traffic either originates or terminates on a short line 
railroad. If confirmed and called upon to review a new proposed short 
line, I would keep in mind the important role these smaller railroads 
can play in the national railroad network in deciding whether to 
approve the transaction as in the public interest.

    Question 8. The Small Rate Case decision at the STB established a 
cap of benefits to any challenging shipper at $1,000,000 over 5 years, 
or $200,000 per year. Evidence has been presented that such a low cap 
would make any small rate case not economically justifiable beyond a 
business shipping much more than 100 rail cars per year. This is a very 
low level of shipping. Is there an answer to this problem? As Stand-
alone rate cases may cost upwards of $5 million, what happens to the 
vast majority of shippers who fall between those that can justify a SAC 
case and those that must live within small rate case guidelines?
    Answer. It is my understanding that in the Small Rate Case 
decision, the Board established two caps on the relief available to a 
shipper that pursues relief under its simplified guidelines: a limit of 
$1 million over 5 years if the shipper seeks relief under a test called 
the ``Three Benchmark'' approach, or $5 million over 5 years if the 
shipper seeks relief under a test called ``Simplified-SAC.'' It is 
further my understanding that when the agency established those limits, 
it stated it may revisit those limits to assure they have been set at 
the proper level. If confirmed, I will make it a priority to monitor 
the effectiveness of these rate relief processes.

    Question 9. In response to shipper concerns that railroads were 
overcharging through fuel surcharges relative to actual added fuel 
charges incurred by carriers, are you aware that the STB stopped short 
of having carriers report data that would allow shippers in major 
categories (coal, ag, chemicals, etc) to compare their fuel surcharge 
to actual increase in fuel cost related to that particular shipping 
sector? As shippers are generally seeking equity across sectors being 
served by carriers, would you be willing to revisit this matter if and 
when you become Chairman of STB?
    Answer. I am only generally aware of what was done in regard to 
fuel surcharges. If confirmed, I will quickly look into this matter. I 
have no preconceived notions about whether or not the current reporting 
requirements imposed by the Board on the Class I railroads could be 
improved to provide better transparency of their fuel surcharge 
practices.

    Question 10. There are now only two major carriers in the eastern 
United States and two in the West. What do you see happening as a 
process if there is another serious proposal for a merger of any of the 
remaining carriers? What would be your standard for deciding whether 
such merger makes sense from a commercial or national policy 
standpoint?
    Answer. If a merger were proposed between any major carriers, I 
envision that the agency would take a hard look at the proposed 
transaction to determine whether the merger is in the public interest. 
The agency would apply its current merger guidelines, which impose 
heightened reporting and substantive standards on any such proposal and 
require the applicant to demonstrate how the transaction will enhance 
competition. If confirmed, I would ensure that the agency hears the 
views of all interested parties, including state and local officials, 
as well as other Federal agencies, such as the Antitrust Division of 
the Department of Justice and the Department of Transportation. I would 
also expect a robust environmental review process to assess the impact 
of the proposed transaction on the health and safety of local 
communities.
    If confirmed, I will enforce the public interest standard in the 
statute, applicable environmental laws and the merger review standard 
described in the agency's rules for major rail mergers.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Johnny Isakson to 
                             Daniel Elliott

    Question. Mr. Elliott, when your nomination was announced by 
President Obama, the United Transportation Union, your employer, 
released the following statement about your appointment. Here is a 
portion of that statement:
    ``The selection by President Obama of Dan Elliott and Joe Szabo to 
head major transportation regulatory agencies is tribute to the 
political influence of the UTU, which flows from the UTU PAC,'' said 
UTU International President Mike Futhey. ``We have good reason to 
expect President Obama to reach into the UTU ranks for other 
appointments in the near future.'' Do you believe that your appointment 
was the result of campaign contributions and influence with the 
Administration, as the president of the UTU has said? What are your 
thoughts on recusing yourself while on the STB from issues involving 
the UTU? Do you think you should hear matters involving them before the 
Board?
    Answer. It is truly an honor to have been nominated by President 
Obama to serve the public as a board member at the STB. I believe I 
have been nominated because of my 16 years of experience as an attorney 
in the transportation area. I also hope my experience provides a useful 
complement to the existing makeup of the Board.
    I take very seriously my ethical obligations under Federal ethics 
laws and the ethics rules of my bar. If confirmed, I will recuse myself 
from any matter where required in order to avoid conflicts of interest 
or the appearance of impropriety so that the public can have confidence 
in the neutrality of the agency. In addition, under the terms of my 
ethics agreement, I have agreed to sign and be bound by the Ethics 
Pledge (Exec. Order No. 13490) which provides that I will recuse myself 
from any particular matter involving specific parties that is directly 
or substantially related to UTU for a period of 2 years.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Sam Brownback to 
                             Daniel Elliott

    Question. Mr. Elliott, on October 16, 2008, the Clean Railroads Act 
of 2008 became law. If you have studied the history of this issue you 
will know Senator Lautenberg and the members of this committee worked 
very hard to craft an acceptable compromise to both protect public 
health and the environment, as well as to protect interstate commerce 
and the environmentally sound transportation of waste by rail. It is my 
understanding that this statute was intended to be widely inclusive of 
the preexisting facilities that were to be both regulated as well as 
protected. It is also my understanding that the legislation encompasses 
preexisting solid waste transfer facilities operated by a rail carrier, 
or on property owned by a rail carrier, or operating on behalf of a 
rail carrier for the purpose of loading waste onto rail cars. Is it 
also your understanding that this statute is to be widely applied to 
all such waste facilities existing on the date of enactment?
    Answer. I am aware of the problems created by trash companies 
seeking to hide behind the preemption provisions of the Interstate 
Commerce Act to circumvent state and local environmental protection 
laws, and the efforts of the Committee to craft an acceptable 
compromise to protect the public health and environment as well as 
interstate commerce. However, my practice and experience at the UTU has 
not exposed me to all the details of the 2008 Clean Railroads Act. It 
is the STB's responsibility to enforce laws passed by Congress in a 
manner fully consistent with the congressional intent. If confirmed, I 
will review the details of the 2008 Clean Railroads law and make every 
effort to understand the intended scope of that provision, to actively 
enforce the law as was intended by Congress, and to protect the public 
from any misconduct or abuses of the preemption protections provided to 
legitimate railroad activities.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Christopher Hart

    Question 1. Last year, drunk drivers killed nearly 12,000 people on 
our Nation's roads. Each one of these deaths should be 100 per cent 
preventable. Yet despite Federal, state, and local efforts--drunk 
driving still accounted for thirty-two percent of deaths in fatal car 
crashes in 2008.
    New Mexico, which once led the Nation in drunk driving statistics, 
has made significant progress in reducing drunk driving through a 
combination of enforcement and education efforts. New Mexico also has a 
statewide drunk driving coordinator--our ``DWI czarina''--to better 
combat drunk driving.
    Although NTSB has issued reports and safety recommendations in the 
past, I would like to know how NTSB can do more to help prevent drunk 
driving. How can NTSB best help efforts to reduce drunk driving? Do you 
support research and development efforts for advanced ignition 
interlock technologies to prevent drunk driving? Do you support the 
efforts of states like New Mexico that require ignition interlocks for 
convicted drink drivers?
    Answer. Although I am interested as a citizen and a driver in 
reducing drunk driving, I have not been involved in drunk driving 
issues as a regulator since I was the Deputy Administrator at the 
National Highway Traffic Safety Administration in 1994. If confirmed, I 
will work with NTSB staff and Members to look at what measures and 
programs have helped to reduce drunk driving, as well as what measures 
and programs have not been so effective, in order to determine how the 
NTSB can most effectively address this serious safety problem. If 
confirmed, I would welcome the opportunity to work with you on this 
critical issue.

    Question 2. The fatal Metro accident last month here in Washington 
is a reminder to us all that the work of ensuring public safety is 
never finished. One concern that I have is that NTSB recommendations to 
transportation agencies are voluntary. When you identify specific 
safety concerns, transit authorities are not required to implement your 
recommendations. How will you help ensure that NTSB recommendations are 
implemented instead of ignored?
    Answer. I believe it is very important that NTSB recommendations 
not be ignored. Congress created the NTSB as an independent agency with 
a singular focus--improving transportation safety--and wisely did not 
give it the authority to regulate or mandate. Although NTSB 
recommendations are not mandatory, they have commanded considerable 
respect in the industry, and have historically enjoyed a high 
compliance rate by regulatory agencies and by industry--more than 80 
percent overall. The fact that the rate is more than 80 percent 
demonstrates that the recommendations have been sound, effective, and 
realistic for improving safety. In more than 16 years at the National 
Highway Traffic Safety Administration and the Federal Aviation 
Administration, I saw firsthand that NTSB recommendations were given 
very serious consideration. Nevertheless, I understand your concern and 
I believe the NTSB should continually strive for higher compliance 
rates. If confirmed, I will work with NTSB staff and Members to assure 
that its recommendations continue to be as sound, effective, and 
realistic as possible for improving safety. I will do my best to help 
NTSB obtain the highest possible compliance rate.

    Question 3. Mr. Hart, you state that NTSB must remain a nimble 
agency in a ``fast moving environment.'' The agency was formed over 40 
years ago yet the transportation landscape we face today is 
significantly different. Have you identified areas where this Committee 
should assist NTSB in meeting the Nation's 21st century transportation 
safety needs?
    Answer. Although I was a Member of the NTSB from 1990 to 1993, many 
technological and process changes have occurred since then, both at the 
NTSB and in the transportation systems that are in its bailiwick. While 
I have been involved to some degree in many of these changes over the 
years, ranging from process changes resulting from information 
technology advances, to substantive changes such as advances in human 
factors research, I am not sufficiently knowledgeable about what the 
NTSB currently needs to be able to describe in any detail how Congress 
or the Senate Commerce Committee might help the NTSB be more effective. 
If confirmed, I will work with NTSB staff and other Members to 
determine in general how the NTSB can fulfill its mission more 
effectively, and to determine in particular how the Committee and 
Congress can help.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Patricia Cahill

    Question 1. During the last Administration, public broadcasting's 
objectivity was under assault. An Inspector General report found that 
CPB's then-Chairman hired consultants to rate the political leanings of 
PBS shows and hired lobbyists with taxpayer funds. As a member of CPB's 
Board, how will you detect, stop, and expose any attempt at political 
meddling?
    Answer. I am aware that, in the wake of the 2005 CPB Inspector 
General report, CPB's Board adopted comprehensive governance reforms 
that clearly define the roles of the Board and management. I understand 
that, among other things, those reforms forbid any political tests in 
hiring, and prevent the Chairman or other Board members from entering 
into contracts without the approval of the full Board. If confirmed, I 
will enthusiastically support those policies and the general principle 
of transparency to ensure that the issues you mention do not arise 
again.

    Question 2. As the General Manager of a public radio station, you 
know that public broadcasters are facing a crisis because of state 
budget cuts and steep decreases in individual and corporate giving. If 
confirmed, what will you do to help struggling public television and 
radio stations across the country?
    Answer. I am aware that the economic situation in our country has 
resulted in revenue declines from all non-Federal sources of income for 
public television and radio stations. This is true for stations from 
every region of our country, and of every size and license type. If 
confirmed, a top priority for me will be to ensure that no American 
loses access to free, over-the-air public television and radio during 
this time. I believe CPB should be focused on ensuring universal 
service and fortifying the health of the public broadcasting system.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                            Patricia Cahill

    Question. Ms. Cahill, you have an impressive background in public 
radio. I would like to ask though how you will approach issues 
affecting public television. For example, in New Mexico the digital 
transition has not yet taken place everywhere in the state, and our 
public TV broadcasters face challenges related to converting rural TV 
translators to digital signals. How will you as a CPB board member work 
to ensure the health of public broadcasting for both TV and radio? How 
can this committee support your efforts?
    Answer. As you noted, this is a tough time financially for public 
broadcasters. The economic situation in our country has resulted in 
revenue declines from all non-Federal sources of income for public 
television and radio stations. This is true for stations from every 
region of our country, and of every size and license type. If 
confirmed, a top priority for me will be to ensure that no American 
loses access to free, over-the-air public television and radio service. 
I believe CPB should be focused on helping to ensure universal service 
and fortifying the health of the public broadcasting system.
    With regard to digital translators, I understand that New Mexico 
depends on a large number of television translators which have not yet 
been converted to digital. Across the country, public television and 
radio stations have significant need for funding to replace the more 
than 1,500 television and radio analog translators providing service to 
mostly rural areas. In fact, a CPB study of the costs to construct 
digital translators for public television and radio produced an 
estimate of $63.5 million. A portion of CPB's $40 million FY 2010 
digital conversion request to Congress would help to meet these costs.
    The Senate Commerce Committee plays a critical role with regard to 
CPB and the public broadcasting system, acting as its authorizing and 
oversight committee. Of course, while the annual appropriations 
provided by Congress are indispensable, this committee will play a key 
role--from a legislative and oversight standpoint--in guiding the 
system from the broadcast-only model to the ``Public Media 2.0'' 
envisioned by President Obama.

                                  <all>

</pre></body></html>
